<html>
<title> - BORDER SECURITY: HOW ARE STATE AND LOCAL OFFICIALS COPING WITH THE NEW LEVELS OF THREAT?</title>
<body><pre>[Senate Hearing 108-72]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-72

BORDER SECURITY: HOW ARE STATE AND LOCAL OFFICIALS COPING WITH THE NEW 
                           LEVELS OF THREAT?

=======================================================================


                                HEARING

                               before the

                PERMANENT SUBCOMMITTEE ON INVESTIGATIONS

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 12, 2003

                               __________

                   FIELD HEARING AT ANOKA, MINNESOTA

                               __________


      Printed for the use of the Committee on Governmental Affairs



    Available via the World Wide Web: http://govt-aff.senate.gov or
                        www.senate.gov/~govt-aff



87-907              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
ARLEN SPECTER, Pennsylvania          RICHARD J. DURBIN, Illinois
ROBERT F. BENNETT, Utah              THOMAS R. CARPER, Delaware
PETER G. FITZGERALD, Illinois        MARK DAYTON, Minnesota
JOHN E. SUNUNU, New Hampshire        FRANK LAUTENBERG, New Jersey
RICHARD C. SHELBY, Alabama           MARK PRYOR, Arkansas

           Michael D. Bopp, Staff Director and Chief Counsel
     Joyce Rechtschaffen, Minority Staff Director and Chief Counsel
                     Darla D. Cassell, Chief Clerk

                                 ------                                

                 PERMANENT COMMITTEE ON INVESTIGATIONS

                   NORM COLEMAN, Minnesota, Chairman
TED STEVENS, Alaska                  CARL LEVIN, Michigan
GEORGE V. VOINOVICH, Ohio            DANIEL K. AKAKA, Hawaii
ARLEN SPECTER, Pennsylvania          RICHARD J. DURBIN, Illinois
ROBERT F. BENNETT, Utah              THOMAS R. CARPER, Delaware
PETER G. FITZGERALD, Illinois        MARK DAYTON, Minnesota
JOHN E. SUNUNU, New Hampshire        FRANK LAUTENBERG, New Jersey
RICHARD C. SHELBY, Alabama           MARK PRYOR, Arkansas

                   Joseph V. Kennedy, General Counsel
        Elise J. Bean, Minority Staff Director and Chief Counsel
                     Mary D. Robertson, Chief Clerk


                            C O N T E N T S

                                 ------                                

                                                                   Page

Opening statements:
    Senator Coleman..............................................     1
    Senator Collins..............................................     3
    Senator Dayton...............................................    27

                               WITNESSES
                          Monday, May 12, 2003

Anne Lombardi, Interim Director, Field Operations, Chicago Bureau 
  of Customs and Border Protection, Department of Homeland 
  Security, Chicago, Illinois....................................     5
Rich Stanek, Commissioner of Public Safety and Director of 
  Homeland Security for the State of Minnesota, St. Paul, 
  Minnesota......................................................    14
Patrick D. McGowan, Sheriff, Hennepin County Sheriff's Office, 
  Minneapolis, Minnesota.........................................    15
Ardell F. Brede, Mayor of Rochester, Minnesota...................    17
Paul Nevanen, Director, Koochiching Economic Development 
  Authority, International Falls, Minnesota......................    18
Ray Skelton, Captain, U.S. Merchant Marine (Retired), 
  Environmental Governmental Affairs Director, Duluth, and 
  Director of Security...........................................    26
Steve Leqve, Airport Manager, Rochester International Airport, 
  Rochester, Minnesota...........................................    29
Michael Curry, Director of Security, Canadian Pacific Railway, 
  Minneapolis, Minnesota.........................................    31
John Hausladen, President, Minnesota Trucking Association, St. 
  Paul, Minnesota................................................    32

                     Alphabetical List of Witnesses

Brede, Ardell F.:
    Testimony....................................................    17
    Prepared statement...........................................    51
Curry, Michael:
    Testimony....................................................    31
    Prepared statement...........................................    62
Hausladen, John:
    Testimony....................................................    32
    Prepared statement with attachments..........................    65
Leqve, Steve:
    Testimony....................................................    29
    Prepared statement...........................................    10
Lombardi, Anne:
    Testimony....................................................     5
    Prepared statement...........................................    43
McGowan, Sheriff Patrick D.:
    Testimony....................................................    15
    Prepared statement...........................................    49
Nevanen, Paul:
    Testimony....................................................    18
    Prepared statement...........................................    52
Skelton, Captain Ray:
    Testimony....................................................    26
    Prepared statement...........................................    54
Stanek, Rich:
    Testimony....................................................    14
    Prepared statement...........................................    47

                              Exhibit List

1. GCorrespondence from Hennepin County (MN) Sheriff Patrick D. 
  McGowan, to Senator Norm Coleman, regarding additional comments 
  in connection with the Permanent Subcommittee on 
  Investigations' May 12, 2003, Border Security hearing..........    99

2. GSupplemental Statement of Michael Curry, Canadian Pacific 
  Railway, to the Permanent Subcommittee on Investigations' May 
  12, 2003, Border Security hearing..............................   101

3. GCorrespondence from Thomas B. Heffelfinger, U.S. Attorney, 
  District of Minnesota, U.S. Department of Justice, to Senator 
  Norm Coleman, regarding the Permanent Subcommittee on 
  Investigations' May 12, 2003, Border Security hearing..........   102

4. GCorrespondence from Rochester, Minnesota Mayor Ardell F. 
  Bride, to the Permanent Subcommittee on Investigations, 
  clarifying his position on funding to cities and block grants..   108

 
BORDER SECURITY: HOW ARE STATE AND LOCAL OFFICIALS COPING WITH THE NEW 
                           LEVELS OF THREAT?

                              ----------                              


                          MONDAY, MAY 12, 2003

                                       U.S. Senate,
              Permanent Subcommittee on Investigations,    
                  of the Committee on Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 8:30 a.m., at 
Anoka-Hennepin Technical College Auditorium, 1355 West Highway 
10, Anoka, Minnesota, Hon. Norm Coleman, Chairman of the 
Subcommittee, presiding.
    Present: Senators Coleman, Collins, and Dayton.

              OPENING STATEMENT OF SENATOR COLEMAN

    Senator Coleman. Thank you. We are thrilled to have the 
students here. I hope you enjoy watching democracy in action. 
Some of us have said, ``Legislation, it's like making sausage; 
you don't want to see how it's made, but in the end, it comes 
out OK.''
    It is important for the young people to see what we are 
doing, and that's our future. So hopefully, it will be a very 
positive experience for you.
    Let me begin by simply thanking all of you for coming out 
so early for my first hearing as Chairman of the Senate's 
Permanent Subcommittee on Investigations to discuss what 
remains a very important topic. We live in changing times in 
this post-September 11 world. And there is the issue of 
security and how we cope with new levels of threats for all of 
us.
    I do want to note the presence of the U.S. Attorney, Tom 
Heffelfinger, who is here. This hearing today will focus on 
local perspectives and how folks are dealing. Our first witness 
will give an overview from the Department of Homeland Security. 
But I do want to note the presence of the U.S. attorney, who is 
an important part of how we deal with these issues here. And I 
have asked him--the record will be kept open, and I would like 
the U.S. attorney, after listening to the testimony and 
questions that are raised, to prepare a written statement that 
we would insert into the record.\1\ I think that would be very 
helpful.
---------------------------------------------------------------------------
    \1\ Exhibit No. 3 appears in the Appendix on page 102.
---------------------------------------------------------------------------
    I especially want to thank my colleague, Senator Collins, 
for joining us today. And Senator Collins is from Maine, very 
much like Minnesota. They are both border States, and both have 
their own great north woods. We began yesterday in an area with 
lots of trees that look just like Maine. Minnesota and Maine 
similarly share borders with Canada, and have airports that 
service a number of international travelers, many of them 
tourists. Seaports are bringing cargo containers bound for 
locations throughout the region.
    I also want to thank Senator Dayton, who will be joining us 
later. I think Minnesota has a unique opportunity. Both Senator 
Dayton and I serve on the Governmental Affairs Committee. And 
rather than having voices that cancel each other out, Minnesota 
has two strong voices on issues like this. And so it's good for 
America and good for Minnesota. And would I note that although 
we are from different parties, we have joined together already 
on a number of issues, such as the Paul and Sheila Wellstone 
Center for Community Building and the Torture Victims Relief 
Authorization Act. And I look forward to working with my 
colleague, Senator Dayton, on the Senior Center for Minnesota.
    Current Federal law gives the Department of Homeland 
Security little guidance on how to deal and distribute the 
billions of dollars of domestic preparedness grants for the 
State and local governments. Senator Collins has indicated, as 
Chairman of the Governmental Affairs Committee, and I want to 
stress that to Senator Collins, she is my Chairman, that she 
will mark up legislation to address this omission. She has put 
forward a set of principles to guide this legislation, and I 
agree with those principles, Madam Chairman.
    She has also initiated a set of hearings before we begin to 
draft legislation. And the hearing later this week will include 
testimony from the Commissioner of Hennepin County. And I hope 
that the testimony we hear today will contribute to this 
process. And, again, I want to stress what a great pleasure and 
privilege it is to have with me today the Chairman of the 
Governmental Affairs Committee.
    The events of September 11 continue to affect all of us. We 
are all aware of the need to increase domestic security. The 
main purpose of this hearing is to see how this is being done 
at the local level, and specifically, right here in Minnesota. 
And although border security remains a national issue, in many 
ways, it is also a very local one. Homeland security is about 
security at home. It's not just about Washington security, and 
it's not just about Federal Government security, but security 
right here in Anoka, International Falls, Rochester, and the 
Twin Cities. And we always have to remember that it's those of 
us at the local level, it's our first responders, that have to 
deal with crisis. A chain is only as strong as its weakest 
link. Increasing airport security in New York or Los Angeles 
accomplishes very little if passengers can fly into Minneapolis 
instead. Efforts to tighten border security traffic in 
Washington State may merely divert traffic to International 
Falls. And finally, increasing protection in the ports of 
Boston or New Orleans is not very effective if ships are also 
unloading in Duluth, and we don't deal with the issues in 
Duluth.
    Second, border security is a local issue, because, as I 
noted before, we rely primarily on local officials as that 
first line of defense. They are the ones that inspect 
international traffic and respond to events. Our people, those 
at the local level, need to have the training, equipment, and 
information necessary to do their jobs. We need to make sure 
that State and local governments find it easy to work with the 
Federal agencies, and that any funding includes sufficient 
flexibility to meet the specific needs of a particular area.
    We all know the importance of increasing security, but it 
is equally important to maintain relatively open borders. 
Northern Minnesota depends heavily on tourism. Minnesota 
businesses, including many Fortune 500 companies, are dependent 
on the ability to import components in order to serve worldwide 
markets. Their executives increasingly need to oversee 
international operations. Specific facilities, such as the Mayo 
Clinic, have seen dramatic reductions in the number of foreign 
visitors. More importantly, a large degree of openness and 
personal freedom is integral to our concept of the American way 
of life that we have come to cherish. We will continue to 
struggle with this need to increase security while minimizing 
delays and disruption.
    As a former mayor, I know that reality often appears very 
different at the local level than it does far away in 
Washington. Information can get stilted through layers of 
bureaucracy. That is, it is important that we continue to have 
events like this where we can hear directly from local 
officials on their own turf. Today's witnesses represent a 
broad range of agencies throughout Minnesota. They have been 
asked to address a broad range of issues, including how secure 
are our entry ports into Minnesota? What kinds of people and 
cargo are involved? What are the challenges handling these 
volumes? What has been the cost of handling these volumes? How 
is border security being conducted now? What procedures are in 
place? Who is responsible for what? What problems exist in 
maintaining border security at an acceptable cost, both in 
terms of government cost and delay at the border? What 
improvements can be made in how different agencies coordinate 
with each other and the private sector? Are local and State 
officials getting the support they need from the Federal 
Government, both in terms of advice and training and in terms 
of money? And finally, how should Federal money be distributed 
to the States and local governments, and are there problems 
with using the money the way it is currently distributed?
    I again want to thank everyone for coming today. I look 
forward to the testimony. Now, I will turn to my colleague, the 
distinguished Chairman, Senator Collins, for her opening 
remarks.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Senator Collins. Thank you very much, Mr. Chairman. Let me 
begin by thanking Senator Coleman for inviting me to come to 
this critical hearing today, and to the great State of 
Minnesota. It's been a real pleasure to be the Chairman of the 
Committee that has jurisdiction over the new Department of 
Homeland Security, and to work very closely with my colleague 
as we wrestle with the new challenges of the post-September 11 
world.
    I must say, I'm just delighted that Senator Coleman is now 
the Chairman of the prestigious Subcommittee, the Permanent 
Subcommittee on Investigations. As a new Senator, he has 
already distinguished himself as someone who is not only a 
quick study, but also willing to listen to all sides and work 
very hard to achieve a compromise that is best for everyone. In 
fact, in an outstanding class of freshmen Senators, there is no 
one who has gotten off to a faster start than Senator Coleman, 
and it's been great to listen to him and to work with him.
    I also want you to know that whenever we're discussing any 
issue that has an impact on local government, that is always 
the first question that Senator Coleman asks. He is very 
attuned to what the impact of Federal actions are on State and 
local governments. And I think that speaks to his former 
experience as a mayor.
    I also look forward to having Minnesota's other Senator, 
Senator Dayton, join us this morning. Senator Dayton and I just 
returned from a trip to Asia. I do have a slight cold, but it's 
not SARS. [Laughter.]
    We've been back for more than the 10-day incubation period 
at this point. But I look forward to his contributions as well. 
And I am very pleased that both Minnesota Senators serve on the 
Governmental Affairs Committee, which I am privileged to Chair.
    I know that the challenges facing Minnesota today in 
homeland security are in many ways similar to the challenges 
that my home State of Maine faces. We have a lot in common 
besides cold winters and hockey. And I do want you to know that 
I have blocked out all memory of last year's win by Minnesota 
over the University of Maine in overtime. [Laughter.]
    It was a painful experience to watch it on television. But 
to show you that I truly have put that behind me, I want you to 
know that I am rooting for The Wild tonight. I do support you.
    We both--as Senator Coleman pointed out--share a border 
with Canada. We both have important ports, we have 
international airports, and those are among the vulnerabilities 
that all of us are more aware of since September 11. On that 
day, as we all know too well, the United States changed 
forever. We no longer can believe that we are invincible or 
invulnerable. We must not, however, become a Nation that is 
willing to cut itself off from the rest of the world. And part 
of our dilemma, as we seek to strengthen homeland security, is 
to avoid actions that have a bad impact. We continue to be a 
strong nation, but we also must be a wiser one, with a new 
understanding of the realities that currently confront us, as 
well as the challenges that await around the corner.
    And a sample of our increased preparedness is taking place 
today; the Department of Homeland Security is doing a joint 
exercise in Seattle and Chicago that is going to involve 
Federal, State and local officials, as well as our Canadian 
neighbors. It's called TOPOFF 2. It's going to involve a 
response to a weapon of mass destruction, a simulated response, 
and the weapon is going to be a dirty bomb, which is something 
that has been a concern for all of us.
    I look forward to learning more today about how your State 
has handled the escalating responsibilities that have come with 
increased homeland security. We are here from the government, 
and we are here to help you. And I think the best way we can do 
that is by learning from you. What do you need from Washington? 
How can we do a better job with the grant programs that are 
available? Do you need more flexibility in how you spend 
funding? Those are some of the issues that we will be 
confronting today, and in subsequent hearings later this week 
in Washington.
    It's important that we always remember that if disaster 
strikes, our citizens don't pick up the phone and call the 
Washington, DC area code of 202. They dial 9-1-1. And that's 
why the State and local response, those of you who are on the 
front lines, is so important to our homeland; because homeland 
security starts with hometown security.
    Again, it's a great pleasure to join the Chairman of PSI 
today for this hearing, and thank you for inviting me to be 
here with you.
    Senator Coleman. Thank you, Senator Collins. I would now 
like to welcome the first witness of today's hearing, Ms. Anne 
Lombardi, International Director of Field Operations, from the 
Bureau of Customs and Border Protection and the Department of 
Homeland Security. Ms. Lombardi, I want to thank you for your 
attendance at today's hearing, and I look forward to hearing 
your perspective on the efforts your department is making in 
State and local agencies in the field.
    Before we begin, pursuant to Rule 6, all witnesses who 
testify before the Subcommittee are required to be sworn. At 
this time, I ask you to please stand and raise your right hand.
    [Witness sworn.]
    Thank you, Ms. Lombardi, you may proceed.

    TESTIMONY OF ANNE LOMBARDI,\1\ INTERIM DIRECTOR, FIELD 
 OPERATIONS, CHICAGO BUREAU OF CUSTOMS AND BORDER PROTECTION, 
       DEPARTMENT OF HOMELAND SECURITY, CHICAGO, ILLINOIS

    Ms. Lombardi. Chairman Coleman, Madam Chairman, Members of 
the Committee, good morning. I want to thank you for the 
opportunity to testify before you today. My name is Anne 
Lombardi. I am currently the Interim Director of Field 
Operations in Chicago, Bureau of Customs and Border Protection.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Lombardi appears in the Appendix 
on page 43.
---------------------------------------------------------------------------
    My responsibility entails providing leadership for the 
legacy agencies of Customs, Immigration and Agriculture Border 
Inspections for all ports of entry in 11 States under my 
jurisdiction, including the port of Minneapolis, Minnesota.
    As you know, these agencies merged March 1, 2003, under the 
Department of Homeland Security. While the traditional missions 
of the respective agencies continue to be observed, we now have 
to integrate their processes and systems to more effectively 
and efficiently support one common mission that will serve to 
enhance the security of our borders. Our collective priority is 
to prevent terrorists and terrorist weapons from entering into 
the United States, while facilitating the flow of legitimate 
trade and travel.
    Please allow me to expand on a few of the strategies we use 
to accomplish this goal. The Department of Defense has provided 
National Guard support to Customs and Border Protection 
counter-drug mission since 1999. There are an estimated 315 
National Guard soldiers currently assigned to us in locations 
throughout the country. In addition to the traditional counter-
drug mission, an additional 626 National Guard Soldiers 
supported Customs and Border Protection's anti-terrorism 
operations along the northern and southern border until a 
sufficient number of full-time staff could be hired and 
trained.
    The deployment of National Guard personnel was significant 
in securing our borders immediately after the events of 
September 11. Due to their proximity to remote locations, 
Border Patrol and State and local law enforcement agencies 
assist as first responders to incidents that may occur in 
remote locations where Customs and Border Protection operations 
are not conducted 24 hours a day. Many of these locations, in 
addition to being secured with bollards and gates, are 
supplemented with remote video cameras and ground sensors.
    On April 29, 2003, Secretary Ridge announced his commitment 
to implement a new entry/exit system, called U.S. VISIT System. 
That's the Visitor and Immigration Status Indicator Technology 
System. U.S. VISIT System will be the structure for the entry 
and exit system replacing the existing NCSR and National 
Student Registration Programs. These databases will provide the 
government with comprehensive arrival and departure 
information, and it will expedite the entry of legitimate 
travelers and residents, being able to concentrate on visitors 
of--or individuals of interest.
    We have expanded our borders with the Container Security 
Initiative System, known as CSI. We use a lot of acronyms. One 
example of partnering with other countries to combat terrorism 
is under CSI, we identify high-risk cargo containers, and we 
partner with other governments to prescreen these containers at 
foreign ports before they are shipped to the United States. The 
governments representing 18 of the top 20 ports have agreed to 
implement CSI, and the governments with the remaining two 
ports--where they are located have expressed support for the 
initiative and a desire to participate. In addition, we have 
our Custom-Trade Partnership Against Terrorism, known as C-
TPAT. It's a pilot program, which enables at this point nearly 
3,000 participating companies, including importers, domestic 
manufacturers, trucking firms and shipping companies, to take a 
fast lane into the United States after taking steps to ensure 
security in their cargo supply chain. We are now looking at 
expanding C-TPAT to other entities, and we have started 
validations on supply chain security measures reported by 
existing C-TPAT participants.
    Deployment of nonintrusive inspection technology is 
continuing nationwide. This technology includes large scale X-
ray, gamma ray imaging systems, portable radiation monitors, 
and a mixture of portable and hand-held technologies to include 
personal radiation detection devices that greatly reduce the 
need for costly, time consuming physical inspection of 
containers, and they provide us a picture of what is inside 
these containers.
    Deployment of portable radiation monitors is underway with 
a total of 45 devices installed along various ports along the 
northern border. While this technology is limited, it does have 
the ability to detect anomalies and the presence of radioactive 
material in containers and conveyances, depending on the source 
of the material and the amount of shielding. These detection 
devices allow inspectors to direct suspect cargo into secondary 
examination areas for more thorough searches if there is an 
initial positive reading. In this way, the vast majority of 
goods and vehicles can pass through without the need for manual 
inspection.
    As more sophisticated screening devices are developed, it 
will give Customs and Border Protection an even stronger 
tactical edge in detecting nuclear material entering the United 
States. A system is already in place at the port of entry at 
International Falls for examining passenger vehicle trucks and 
rail traffic. Within 30 days, an installation of a gamma ray 
imaging system will be completed by the railroad bridge at 
Ranier, and gamma ray imaging systems will also be installed at 
the rail line systems at Noyes. Personal radiation detectors 
have been employed for those who perform passenger screening. 
And we conduct cargo examination, similarly equipped, and all 
of the inspectors have been trained to properly use these 
devices. We have also created Customs Area Security Centers, 
which monitor by camera outlying crossings from these 
designated centers. So in addition to bolstering our northern 
border ports with bollards, gates, security lighting, video 
security systems will be installed in all ports of entry to 
monitor activity during nonoperational hours. And this live 
video is monitored by a center which is manned 24 hours a day, 
7 days a week, and uses the response from State, local and 
border patrol personnel to address and identify illegal 
crossings.
    Today, there are two centers: One in Maine, and one in 
Blaine, Washington, and soon there will be centers in Highgate 
Springs, Vermont and Champlain, New York to cover additional 
areas. Security gates have been installed at the ports of entry 
at Roseau, Pine Creek, Lancaster and Noyes; ports that have 
limited public hours. Installation of video systems and 
lighting is progressing, and all land borders in Minnesota have 
a 24-hour office presence, even during closed hours.
    The Integrated Surveillance Intelligence System was 
established to effectively monitor the integrity of U.S.-Mexico 
and U.S.-Canada national boundaries for the purpose of border 
patrol. The system uses data from components of surveillance 
systems to provide controlled response, information 
distribution, mapping and query results to support the U.S. 
Border Patrol. This includes sensor and video data as they come 
in from remote sites, providing appropriate responses. The 
major component of this system is an intelligent computer-aided 
detection system, unaided ground sensors, night equipment, 
local positioning systems and remote video surveillance. And it 
is the integration and management component of an electronic 
surveillance of the northern border. Staffing to the northern 
border has been increased significantly since the events of 
September 11. In fiscal year 2002 and the beginning of 2003, 
the number of new inspectors, canine officers and special 
agents increased by 3,200 officers, of whom 775 have been 
assigned to supplement the northern border. Border Patrol hired 
2,500 agents in 2002, and as of 2003, a total of--February, 
2003, a total of 560 Border Patrol agents have been deployed. 
This is all part of the Smart Border Declaration, which was 
announced between the United States and Canada in December 
2001, which focuses on the secure flow of people, the secure 
flow of goods, investment in common technology and 
infrastructure to minimize threat and expedite trade, and 
coordination and information sharing to defend our mutual 
border.
    In closing, the Bureau of Customs and Border Protection is 
committed to continue and expand our counter-terrorism efforts 
and improve our efforts to protect America, the American people 
and the American economy. Thank you for the opportunity to 
testify.
    Senator Coleman. Thank you, Ms. Lombardi. I think we will 
begin with 5-minute rounds of questioning, and I will start.
    It was heartening to hear about the installation of gamma 
ray imaging systems at the railroad bridge at Ranier. And I 
know my source for the best place to fish. I could tell you a 
lot of walleye stories right under that railroad bridge on many 
occasions. I just want to talk about fishing in Minnesota.
    Let me just ask a question about technology. You also 
mentioned, for instance, biometrics at eQuest. Does that 
include, for instance, up in International Falls, the air 
service up there, how do you have biometrics at that operation, 
and who does it, who manages it, who supervises it, who pays 
for it?
    Ms. Lombardi. Well, right now, there are several different 
registration systems, and what we hope to do is integrate it so 
that we will be registering all individuals, along with 
biometric information, so that whenever they enter the United 
States, whether it's through the border or an airport or 
seaboard, that this database will be available, and we will be 
able to find the people and assess their proper status into the 
United States.
    Senator Coleman. To kind of continue, if I can just take a 
bigger perspective, you talked a little bit about homeland 
security in Minnesota. The Department just got put together in 
March, and I like to get a sense of who is in charge. In 
Minnesota, who is in charge, who are the principle points of 
contact of the State and local officials, many of whom are here 
today.
    Ms. Lombardi. OK. It has only been 2\1/2\ months. I have 
been designated as the Interim Director of Field Operations for 
11 States, including part of Minnesota. Part of it is under a 
different director, to ensure that the northern border issues 
are all dealt with in a uniform manner. We are truly what we 
have adopted as our motto, ``One team, one fight.'' We have 
integrated, and I have people behind me from Border Patrol, 
from Legacy Customs, from Legacy Immigration, and we are 
working together very closely to assure that we can address the 
needs.
    Our first mission, as of March 1, under Commissioner Bonner 
was continuity of operations. We were to make sure that we did 
our priority mission and our traditional missions, and that we 
continued to operate while the myriad of issues regarding 
logos, uniforms, unions, and all of the organizational things 
were worked out. But we have been working very closely 
together, and we are going to ensure that that continuity of 
operations continues until we address all of the additional 
measures and things that we have to do to truly unite and 
leverage our resources. And I believe that's happening. We have 
already had some new initiatives in terms of working jointly, 
and I have been, for instance, from Chicago, I have been 
working closely with FEMA and part of this TOPOFF 2, Chicago is 
one of the sites. So we have truly been working together and 
not letting the administrative issues and those kinds of things 
deter us from continuing with our border security primary 
mission.
    Senator Coleman. And I know, recognize, that this is a new 
entity, the Department of Homeland Security. And as we were 
introduced on the way in, talked about who you are with now, 
formerly known as.
    Ms. Lombardi. Yes.
    Senator Coleman. The artist formerly known as. But if I can 
again break it down to a very local level, in Minnesota, 
principal points of contact for these issues, are they with the 
Chicago office, does the U.S. attorney play a role in that? Who 
does the sheriff in Aitkin, Minnesota--if all of a sudden an 
issue came up, who do they contact?
    Ms. Lombardi. Well, I have behind me Mr. Cloud, who is the 
Interim Port Director for Minneapolis. I have Mr. Shultens, who 
is a Legacy Customs Port Director. I have Greg Schroeder from 
Immigration Border Patrol, Legacy Immigration, and I have Wally 
Schulte from International Falls. So we all work together. 
There are different people in charge at different ports. 
However, they either report to myself, or they report to Tom 
Hardy in Seattle who is responsible for the entire northern 
border tier from Duluth to Seattle, Washington.
    Senator Coleman. And then one more question along that 
line. How well are the border security activities integrated 
with the anti-terrorism activities in--as I recall from my old 
days as a mayor, before that as a prosecutor, we worked 
together in a joint-Federal, State-Federal, anti-drug and anti-
terrorism task force. How well integrated are the border 
concerns, or the activities of those, operating with these 
joint task forces?
    Ms. Lombardi. We certainly do participate in all of those. 
I have joked about needing larger conference rooms than ever, 
because we now have more and more people who are working 
together, but whether it's State and local, whether it's FEMA, 
whether it's Transportation Security Administration, Customs, 
Legacy Customs, Immigration, whatever, and we have been 
working, I think, more closely than I have ever experienced 
before in terms of meeting on a regular basis, talking about 
response capabilities, sharing information about resources and 
capabilities, sharing information about technologies.
    I personally feel that things are going as well as they can 
go right now, and as we merge the agencies and deal with the 
administrative things, I think we will just continue to 
progress in our ability to provide effective, efficient border 
security for the taxpayer dollar.
    Senator Coleman. And I will direct that same question to 
the local folks to get their perspective.
    Last kind of area of concern. Can you talk about areas and 
particular points of vulnerability that deserve special 
attention as we sit here today, 3 months after you began your 
existence? What are the areas of concern that you have as you 
look at the Minnesota situation?
    Ms. Lombardi. Well, I think we have tried to address the--
obviously, starting with ports of entry with the additional 
gates, bollards, detection systems, etc. Obviously, with the 
long border, the places in between the ports are always more 
vulnerable. I sometimes joke about my area not having a land 
border, but a liquid border. But certainly when you come to 
Minnesota, sometimes that liquid border in the north is frozen, 
so it's very easy to come across as a land border. So obviously 
the efforts of the Border Patrol at the State and local system 
are going to assist that, because that is such a large border, 
and we do not want to shut down the border and put fences or 
whatever, but we do want to protect it.
    And I think that is the area we are always concerned with, 
the places between the ports. Ports tend to be where the 
legitimate traveller and trades people come through, and they 
do their proper declarations. Obviously, the places in between 
are the most vulnerable, which is why we are pursuing the 
technology that we are with sensors, cameras, and we certainly 
need the State and local support to respond, because these 
places are very remote.
    Senator Coleman. Great. Thank you, Ms. Lombardi. Senator 
Collins.
    Senator Collins. Thank you very much, Mr. Chairman. 
Director Lombardi, I want to follow up on the issue of border 
security raised by Senator Coleman. In both of our States, 
Minnesota and Maine, in the more rural communities that are 
right along the border, it is not uncommon for families to be 
split on both sides of the border, for people to cross the 
border literally every single day, whether it's to shop or to 
work. Now, in Maine where we're seeing the problem is with some 
of the smaller border crossings being closed in order to 
improve security, or they're being locked up at 4 p.m. on 
Friday and not reopened until Monday morning, and I suspect 
it's probably a similar problem in Minnesota and other States. 
How are we going to strike the right balance so that we make 
our borders more secure without interfering with the legitimate 
commerce and crossing of people each day?
    Ms. Lombardi. Well, I think we have to rely on several 
different things. Obviously, staffing a port requires 
resources. We need to do more with technology. We need to do 
more with preregistration programs so that legitimate traveller 
who goes back and forth three or four or five times a day can 
get through the border legitimately, correctly, identified and 
can move freely. Obviously, we want to make sure that we also 
identify the people who are trying to use those remote ports 
for illegal entry, and we need to monitor for diversions around 
the port of entry and communicating between the ports.
    It is a very difficult job to find that balance, but I 
think the use of technology, the use of preregistered programs, 
where people can provide us with all of the information that we 
need to do, we can do the enforcement assessments on them in 
advance, and then have some kind of technology system that will 
allow them to enter more freely when we are not staffed at the 
border.
    Senator Collins. Thank you. That is the scenario that I 
think we are going to have to keep working on. For example, 
some of the border crossings in Maine that have been closed 
have created real problems as far as for our woods industry. 
Others have created emergency response issues, where the first 
responders may be on the Canadian side of the border and the 
gate is locked, they may not have the easy access they need to 
the American side of the border. It's something that I hope we 
can keep working with in the department.
    Another issue that has come up repeatedly in our 
conversations with State and local governments concerns the 
communication between the new Department of Homeland Security 
and the State and local officials. For example, at a hearing 
that we held in Washington, where we had police and fire chiefs 
from around the country testifying, each one of them said that 
they learned we had elevated the threat to code orange from CNN 
or from watching television, and not from the Department. What 
do you think the Department needs to do?
    I recognize the challenges of the largest reorganization of 
government in more than 50 years. But what do you think the 
Department should do in order to improve communications with 
State and local governments and first responders?
    Ms. Lombardi. I appreciate that CNN comment, because we do 
have that situation sometimes. It also shows up on our website, 
so it is more of an initial notification. But we have a system 
of contact in calling, and all of the Customs and Border 
Protection, all of the directors, are called by our Secretary 
of Communications. We call our ports.
    And it's, in effect, a calling tree of a variety of people 
that we have identified as being in a needing-to-know, 
including, as you mentioned, we have our ports in Canada that 
we need to alert to the fact that the border situation is 
changing, because, again, it's a shared border. We are trying 
to make it a smart border, and we need to make our partners in 
the other countries involved. I think lot of these issues will 
be worked through over time. And I think the technology one, 
the communications one, we will have to address. Certainly, we 
are addressing it within the Department of Homeland Security. 
We have a number of work groups who are talking about the 
various communication systems, the legacy agencies, how can we 
bring them together, how can we make sure that we coordinate. 
We are sharing technology. For instance, we shared our Customs 
Radiation Technology with Immigration.
    We are working to improve our radio communications, so that 
we are all on the same systems and being able to communicate. 
And, again, that will extend to the State and locals as we can 
make it work. And we will find ways to do it in the interim, 
and we will find ways to do it in the long-run. But it's very 
important that we be able to communicate with our counterparts, 
because we all need to leverage each other's resources in order 
to make sure this is truly what you call Hometown Security.
    Senator Collins. Finally, I want to ask you about the 
staffing of the northern border. For many years, the northern 
border has received the short end as far as staffing of 
Immigration officials; all of the focus was on the southern 
border with Mexico and stemming the tide of the illegal 
immigrants seeking to cross. And yet, if you look at our 
northern border, it's so much larger, longer. It's in many ways 
more of a challenge, as you pointed out when you were talking 
about the waterways being frozen.
    That certainly is the case in northern Maine. There used to 
be a very vigorous smuggling of cigarettes back and forth in 
winter months by people just crossing the frozen river. You 
said in your statement that the number of inspectors, canine 
enforcement officers and special agents, had increased by 
3,200, of whom 775 had been assigned to supplement the northern 
border enforcement activities. Does that suggest that we still 
have an imbalance in the allocation of resources to the 
northern versus the southern border?
    Ms. Lombardi. As I indicated to you, Madam Chairman, I 
started my career in the Boston region, which included your 
State of Maine, and I have never seen such an influx of new 
resources on the northern border as has occurred over the last 
couple of years. For 2001, there were about 1,600 inspectors 
and canine. In 2002, that jumped 2,114. We are currently at 
2,563, and for the rest of this fiscal year, we are projecting 
3,000. And hopefully in fiscal year 2004, that will increase to 
3,500, approximately, and that includes Legacy Customs, Legacy 
Immigration and Legacy Agriculture. So in a 3-year period, we 
are seeing literally almost a tripling of the resources, and 
that has, as you point out, in the past has not been the case. 
But I think the concern, the threat, we always thought the 
northern border in Canada was an alliance, and it was a free-
flowing trade.
    We have the Free Trade of the Americas, going back to the 
Canada Free-Trade Agreement and NAFTA, and now the Trade of 
Americas. But certainly the terrorist mission has changed that 
view in terms of the risk in the northern border, and all of 
the legacy agencies in the Department of Homeland Security are 
supporting a vigorous, aggressive hiring, training package, 
and, again, leveraging each other's resources so we provide 
appropriate coverage. But it has been unprecedented, and we are 
continuing to keep those positions filled and trained and on-
site.
    Senator Collins. Thank you. And thank you, Mr. Chairman.
    Senator Coleman. Thank you, Senator Collins. We'll do one 
short round of follow-up. There is one issue that I want to 
raise, more perhaps as a State. And rather than the question 
going to the larger focus of homeland security, not just the 
border protection, but it's a follow-up to Senator Collins' 
questions about communication between Homeland Security and 
those of the State and local levels. I was mayor on September 
11, 2001 and quite often there would be questions about 
security concerns, levels of threat, that we would also read in 
the paper. And folks would come to the mayor as the local 
elected official, learning what's going on. And we simply 
weren't in the loop. And I would hope, as one looks at the 
issue of communication with State and local officials, that one 
goes back to the elected officials who are often called upon to 
respond to the concerns of the community, and that they somehow 
be included. Mayors aren't sitting at those joint task force 
meetings, local elected officials aren't sitting at those 
meetings. But clearly, from the public perspective, they 
represent government, and the government is something to them. 
Governors may fit into that same situation. But I want to raise 
that issue, and then follow it up with a question. When it 
comes to a specific threat, if there is an issue about someone 
who we believe is in the process of entering the country or on 
the look-out for entering the country representing a potential 
threat, can you give me a better sense of how folks on a local 
level know that? What's the flow of communication to folks at 
the local level to be part of this look-out part of using the 
resources, the public resources that are available to deal with 
threats?
    Ms. Lombardi. Well, from my port of entry point of view, we 
do have databases, we enter criteria, we have a national 
targeting center that monitors. We have advanced passenger 
information on many of these, especially in airports and 
seaports. Land border is always more vulnerable because of 
passengers coming up, and is right in front of you at that 
time. And that's why I think this alliance on preregistration 
programs is going to be important. But you are correct. We need 
to work with State, local, the elected officials in those areas 
to ensure that the entire community is involved. I certainly am 
going to experience that personally in this next week during 
the TOPOFF exercises. And I think this is only the second one, 
and I think we learned many lessons from the first one. And I 
think certainly as we continue to do these around the country, 
we will learn lessons about integrating State and local elected 
officials, as well as the Federal law enforcement community. 
And certainly I would agree with you that is very important 
that our communications not be insular to a department or to 
the Federal Government, but that we need to be working in the 
communities and working together.
    And certainly I will take that message back to the 
Department in terms of your concerns and how we do this and 
make sure that we continue to address it. Obviously, we have 
people locally who have good connections and good relationships 
with State, local, and elected officials, and we will continue 
to rely on that structure to ensure that we maintain the 
communications at this point.
    Senator Coleman. Last follow-up to that line of inquiry. It 
has to do more with technology. Suppose that there was an alert 
out for a Mr. X profile. If a State trooper operating outside 
of the International Falls area, Minnesota, had stopped Mr. X, 
would they have the capacity to know there was an alert out for 
him? Do we have the ability for folks at the local level when 
they stop somebody 15 miles from the border to say, ``Yes, we 
are looking for a specific individual''?
    Ms. Lombardi. Border Patrol works very closely with the 
State and local, and they would be the conduit. If the 
Department of Homeland Security knew of an individual, then 
through the Border Patrol--well, first through our databases 
and targeting system, ports of entry would know to be on the 
look-out for this person. Border Patrol would then communicate 
with their sheriffs' offices, State, and local to ensure that 
they are aware of it, as well.
    Senator Coleman. Thank you. Senator Collins.
    Senator Collins. Thank you.
    Senator Coleman. Ms. Lombardi, thank you very much for your 
testimony.
    Ms. Lombardi. Thank you.
    Senator Coleman. I would like to call our second panel of 
witnesses at this time.
    We now welcome our second panel of witnesses, Commissioner 
Rich Stanek from the Department of Public Safety here in the 
St. Paul area. Sheriff Patrick D. McGowan of the Hennepin 
County Sheriff's Office. Rochester Mayor, Ardell Brede. And 
finally, Paul Nevanen, who is the Director of the Koochiching 
Economic Development Authority in International Falls, 
Minnesota.
    Gentlemen, I thank you for your attendance here. I look 
forward to your testimony and hearing your unique perspective 
on how your government agencies have had to respond to the 
general need of increasing domestic preparedness, and how we at 
the Federal level can do a better job of serving you. Again, 
pursuant to Rule 6, all witnesses who testify in this 
Subcommittee are required to be sworn in. At this time, I would 
ask all of you to stand and raise your right hand.
    [Witnesses sworn.]
    Thank you. Commissioner Stanek, we'll proceed with your 
testimony first, and then we'll hear Sheriff McGowan, and then 
Mayor Brede and then Mr. Nevanen. And once we have heard all of 
the testimony, we will be hearing questions.

TESTIMONY OF RICH STANEK,\1\ COMMISSIONER OF PUBLIC SAFETY AND 
 DIRECTOR OF HOMELAND SECURITY FOR THE STATE OF MINNESOTA, ST. 
                        PAUL, MINNESOTA

    Mr. Stanek. I am the Commissioner of Public Safety, and 
Director of Homeland Security for the State of Minnesota, and I 
appreciate the opportunity to testify before you today. The 
fact that you are having this hearing here reflects your 
commitment to homeland security not only on a national basis, 
but at the State and local levels, as well. Because it is here 
where homeland security begins.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Stanek appears in the Appendix on 
page 47.
---------------------------------------------------------------------------
    Minnesota has been a national leader in terrorism 
prevention and preparedness. In 1999, the Department of Public 
Safety forwarded to the legislature an extensive report on 
possible terrorism risks in Minnesota, and what our State would 
do to respond, that leadership continues today. Senator Coleman 
and I had a conversation recently. The Senator wanted to be 
actively engaged in the homeland security issues and needs of 
his State. And after our discussion, I decided to create a 
Commissioners Public Safety Advisory Group. The leaders of 
police, fire, emergency services, many of whom who are in the 
audience today, will get together with me to offer suggestions 
and advice related to Homeland Security. Minnesota's 
congressional delegation is also invited to attend our meetings 
to hear firsthand some of our homeland security issues, and 
what it all means to our public safety professionals at the 
local level. Homeland security is all about communication and 
coordination. The advisory group will demonstrate that. Other 
existing relationships in Minnesota are demonstrating high 
levels of communication and coordination. The connection 
between the State and our Federal partners is rock solid. We 
are blessed in Minnesota with an FBI field office that is 
inclusive and accessible, and a U.S. attorney who is engaged in 
response of law enforcement needs. Our link to the Department 
of Homeland Security is equally strong, with frequent updates 
through Secretary Ridge on a regular basis. And we are thankful 
for the Federal dollars that have come into Minnesota for 
training, equipment and emergency preparedness exercises. And I 
can assure you that we are not sitting on that money. We are 
actively working with our county and local partners to get the 
funding out the door and into the hands of the people who need 
it the most, our first responders.
    Well, we aren't just passing it along without a plan. In 
Minnesota, we are working with our counties and cities on a 
regional approach to fund the equipment and training. In 
Minnesota, we are being smart with the money you are providing. 
Inter-operable radio systems and integrated criminal justice 
integration systems, such as Minnesota's own CrimNet, are key 
to homeland security success. However, on behalf of our local 
participants, I ask you to consider lifting some of the 
restrictions and limitations on how that funding can be spent. 
We would like flexibility to be able to pay overtime and 
personnel expenses with the appropriations.
    The magnitude of Minnesota's budget crisis cannot be 
overstated. Public safety is a core function of Governor 
Pawlenty's administration. Our local law enforcement and other 
public safety officials are being asked to do more with less. 
After all, equipment is great, but it's the people that make it 
work. Every chief law enforcement officer and emergency manager 
in Minnesota is making smart and creative decisions in how to 
provide their services on a shoe string. Relaxation of the 
limitations would help all of us make better decisions for the 
safety of our citizens. We feel that through leadership we can 
set a national example by continuing to make great strides in 
public safety and homeland security in Minnesota, whatever the 
future brings. Thank you, Senator Coleman, and Members.
    Senator Coleman. Thank you, Commissioner Stanek. Sheriff 
McGowan.

 TESTIMONY OF PATRICK D. MCGOWAN,\1\ SHERIFF, HENNEPIN COUNTY 
            SHERIFF'S OFFICE, MINNEAPOLIS, MINNESOTA

    Sheriff McGowan. Good morning, Senator Coleman. And Senator 
Collins, welcome to Minnesota. It's a pleasure to have you 
here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Sheriff McGowan appears in the 
Appendix on page 49.
---------------------------------------------------------------------------
    It's a pleasure to be here today, and I appreciate the 
opportunity to present a view of homeland security from a law 
enforcement perspective. September 11 is certainly a date we 
will all remember for the rest of our lives. We cannot change 
the physical and emotional devastation that has rocked us all, 
but we can learn from it. The new role and responsibility of 
local law enforcement is a key element to homeland security. It 
challenges our resources and our time. Today, fully one-third 
or more of my time is spent dealing with homeland security-
related issues. I have become a realist in this process, and 
realize we cannot prevent everything. But we can be prepared.
    We in Hennepin County in Minnesota have been very fortunate 
to have been ahead of the curve on much of the preparation for 
terrorism. We have been members of the FBI's Joint Terrorism 
Task Force since 2000, 18 months prior to September 11, and we 
are proud of our proactive achievements. Our planning and 
preparation for large-scale events has been ongoing since 1998, 
and we have learned a great deal from a number of realistic, 
coordinated drills and exercises. We know that for the first 72 
hours of a major incident, local first responders will provide 
the initial coordinated response. Our response will be the 
cornerstone to an effective ongoing operation to save lives and 
protect our citizens. However, we must be prepared for a 
weapons of mass destruction array that could include 
radiological, chemical, biological or explosive strikes. To 
provide that kind of response, it is imperative that we have 
the appropriate training, equipment and staff to handle each of 
these potential threats.
    This vital training and resource inventory is expensive and 
must be ongoing. Even if you have the appropriate equipment, it 
will be of little value if the parallel training is not 
continuous. It is not unlike the way that each of us view our 
personal vehicle. You know that you might have to change a tire 
on your vehicle, and that is a skill necessary to just getting 
back on the road again. But how often do you do this? Do you 
even know where the jack is located, or how to access it? Many 
of you simply couldn't perform this function so basic to your 
driving needs. Public safety responders are no different. They 
need to have ongoing training and updating on equipment 
techniques, or they will be unable to perform a skill 
efficiently when they must. Because this training and equipment 
is expensive, and often has a shelf life of approximately 5 
years, the allocation of resources needs to be thoughtful. We 
cannot afford to equip and train every public safety responder 
in every facet of preparation.
    That is why the formation of Regional Response Teams 
provides a sensible solution to meeting our public safety 
response requirements as they apply to terrorism and weapons of 
mass destruction. For example, in Minnesota, I would propose 
the formation of five Regional Response Teams, regionalized 
strategically, which would allow us to consolidate our 
resources. These regional response teams would not only serve 
as a primary response team in their own area, but could be 
rapidly deployed to assist in other areas of this State as 
needed. I often believe that Americans are great sprinters, but 
we are poor marathon runners. As a nation, we respond initially 
with courage, determination, and just true grit. However, we 
have a tendency to have little taste for the long haul. I 
strongly urge you to recognize that Americans' homeland 
security issues are truly a marathon. We must not let our 
determination to be prepared to respond to any assault on our 
Nation to wane. We need ongoing funding to provide the training 
and resources I have discussed. We need your continued focus on 
and support of our cause.
    Ladies and gentlemen, we must preserve the image of those 
crumbling Twin Towers in New York, the Pentagon in flames, and 
the Pennsylvania fields with the wreckage of a commercial 
airliner and those lives lost within our national memory. Our 
enemies struck the heart of our country. We must say, ``Never 
again.'' The key, Senators, is your continued support of our 
needs at the local level to help fund our new role in homeland 
security. Thank you.
    Senator Coleman. Thank you, Sheriff McGowan. Mayor Brede.

 TESTIMONY OF ARDELL F. BREDE,\1\ MAYOR OF ROCHESTER, MINNESOTA

    Mr. Brede. Thank you, distinguished Senators, and good 
morning. I am Ardell Brede, the Mayor of Rochester. For 4 
months, I've been mayor, so much of this is new to me. But 
thank you for the opportunity and the invitation to express our 
concerns and the impact to our community.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Brede appears in the Appendix on 
page 51.
---------------------------------------------------------------------------
    Rochester is unique in the sense that it's perhaps impacted 
more greatly than other cities of comparable size within the 
United States, due to its makeup. The city has a major medical 
Mayo Clinic and high-tech community, IBM, Pemstar and a number 
of other high-tech companies. And it's also home to an 
international airport. And because of those particular 
features, we are considered a listed target of terrorist 
activities. Because of that, greater security for those 
facilities are needed, and this comes from more patrol in those 
areas, thereby reducing the available patrolling for other 
neighborhoods within the community, since there are no other 
resources allocated for this purpose.
    For this morning's testimony, I received information from 
the Rochester City Administrator, the police and fire 
departments, the Mayo Clinic, Olmstead County Public Health 
Department, as well as our sheriff of Olmsted County. In a 
separate report, the Rochester International Airport will be 
presented in the next panel by Mr. Leqve.
    The police department estimates it has the equivalent of 
eight FTE's at the airport, which is funded by the Federal 
Government. But as of May 31, that funding will be eliminated, 
and they will become an additional local cost. The present 
Federal reimbursement amounts to $15,000 a month. However, that 
is only covering the hourly wages, and none of the other 
associated costs, such as benefits. Those costs are borne by 
the city.
    Since September 11, there's been an increased volume of 
calls to the fire department because of suspicious substances. 
All of those require additional trips out to them, and, with 
again, no additional resources. It requires the hazmat team to 
respond. And currently, with the State budget crisis, some of 
those funds may be cut, which will then create greater 
concerns. At the Mayo Clinic, they have developed rapid Anthrax 
and smallpox DNA tests. Those tests dramatically shorten the 
waiting time for authorities to determine if suspicious 
substances are contained in these harmful elements. The Mayo 
Clinic did all of that with little or no financial support, and 
all of them involved huge amounts of staff time.
    The global economy is weak, and specifically from the 
Middle East--fear of travel in different ways, the delays in 
processing of visas--prior to September 11 it was about a 1-
week time for processing a visa. That actually went up to about 
11 weeks, and now, fortunately, is down about 4 to 6 weeks. But 
an international patient who has a medical condition that 
warrants them coming to the Mayo Clinic, a 4- to 6-week delay, 
they're going to find their treatment and care elsewhere. And 
it is estimated for every dollar that would be spent at Mayo 
Clinic by these patients, it equates to another $2 in the 
community. Also, as a payment mechanism, those patients pay 
full dollar, where our Medicare patients and other patients 
have some sort of discount. The international patients have 
dropped by 23 percent, although, again, in this year, 2003, we 
have seen an increase of patients coming from Europe, Latin 
America, and Kuwait. But it still is a concern. And 
anecdotally, since the war with Iraq, we have seen somewhat of 
a quieting of international activity with some cancellations 
and rescheduling. But no major change or dramatic change.
    We are looking forward to the partnership between the 
University of Minnesota and Mayo on a biotechnology 
partnership, and I think that's just another area that we will 
be concerned about, the resources that are needed for security. 
We have met with the Olmsted County Public Health Services. We 
do have a Joint Emergency Management Committee, and I have been 
a part of that, and it is one of the things that needs to be 
updated, because many of those emergency plans really didn't 
contain anything on terrorism. And fortunately, we received a 
small grant that we were able to secure somebody to help us 
update, that's in the process as we speak.
    From the sheriff and also from the police department, they 
have talked of the 800 megahertz communication system that is 
needed, and funding of that, whether it's from the State or 
Federal monies, but has not come forward enough that it can be 
implemented yet. So I believe that's the level of my comments 
at this time.
    Thank you.

 TESTIMONY OF PAUL NEVANEN,\1\ DIRECTOR, KOOCHICHING ECONOMIC 
     DEVELOPMENT AUTHORITY, INTERNATIONAL FALLS, MINNESOTA

    Mr. Nevanen. I really appreciate this opportunity to talk 
about Homeland Security from a small town, front-line 
perspective.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Nevanen appears in the Appendix 
on page 52.
---------------------------------------------------------------------------
    International Falls is a small community, about 6,000 
people, 300 miles north of here. It is also situated about 
midway along the northern border. It stretches across a major 
border, as well as it's a major border crossing for vehicular 
traffic as well as a major railport. It is the third busiest 
railport in terms of trains and containers. We have seen a 
continued growth in terms of both vehicular and train traffic, 
and as well there has been a shift in the country of origin for 
a lot of the incoming rail traffic. Now we are seeing an 
increase in the Pacific Rim and Middle East.
    Our area's economy, much like northern Maine, is driven 
primarily by the paper industry, as well as tourism. Cities and 
counties need to have a strong partnership, and I am echoing a 
lot of the sentiments of the folks here, with Federal and State 
Governments to help deal with lagging economy, a loss of jobs, 
and other issues of national security. Homeland security 
becomes, as you mentioned with hometown security, one person, 
one block, one Main Street. It is what makes the difference in 
people's lives. That is what shows people that government can 
work and does work at the local level. The headlines may come 
from Washington or St. Paul, but elected officials from the 
communities, like International Falls, are having to solve the 
problems and help make life a little bit better in their 
communities.
    As cities and counties in northern Minnesota face some of 
the tightest budgets in years, Federal help to spur economic 
growth becomes more crucial than ever. International Falls 
faces many potential challenges daily as a direct result of a 
number of border crossings.
    We are desperately in need of funding for homeland security 
situations. Our first responders are very dedicated 
individuals. Regularly they are asked to give more and more 
time to become the highly trained unit that they are. We expect 
our volunteers to act and respond like well-oiled machines. 
Well, Senators, these well-oiled machines require fuel, and we 
ask both the State of Minnesota and the Federal Government to 
help us with that requirement. The State of Minnesota has 
responded thus far with a mobile decontamination chamber for 
International Falls. It helps respond to situations. And 
currently we have a grant application into FEMA for a Mobile 
Incident Command Center that will be utilized with the 
decontamination chamber. But all of this equipment requires 
additional training. The costs associated with emergency 
preparedness have doubled since September 11 as a result of 
that additional training. Anthrax, weapons of mass destruction, 
biological and chemical weapons, are all new terms that have 
been become common language since September 11. Our 
firefighters now have to be trained in all areas of response, 
even the unknown types agents of terrorism regularly employ. 
Suicide bombings could happen anywhere, and we have to be 
prepared. State and Federal law enforcement personnel also need 
and undergo training that continues to evolve to cover an ever-
expanding set of emergency scenarios.
    For those front-line communities, like International Falls, 
the key is planning, preparedness, and having the necessary 
tools. Aside from the mobile decontamination chamber, another 
item that helped address these needs is the recent placement of 
the Rail Vehicle and Cargo Inspection System, the VACIS, in 
Ranier beside International Falls. The VACIS now allows the 
protection personnel to scan a much higher number of containers 
immediately as they cross into the country, whereas in the past 
they sampled a much smaller sampling.
    From a training perspective, the community has kind of 
taken a proactive approach. And what we have done is we have 
looked at this influx of Federal employees and the need for 
training, and we have an initiative now that we would like to 
have International Falls serve as a training center for 
northern border security issues. We have done a needs 
assessment with all of the Federal agencies and the locals, and 
it's been well received. But there is an increased need in 
training. And we think that International Falls is situated 
geographically, and because of the other assets there, is in a 
perfect location to do that. So we have put in a Federal 
appropriation--applied for a Federal appropriation to further 
this initiative. But all of these efforts have required a 
gradual increase of communication and cooperation among all of 
the participants; local, State and Federal, and that's not 
always an easy task. And I have been very impressed and 
encouraged by the professionalism and the amount of cooperation 
that everybody has shown to date. So I am very encouraged. And, 
again, I thank you.
    Senator Coleman. Thank you very much, Mr. Nevanen.
    And just before we begin the questioning, I just want to 
comment how impressed I am with the quality of the panel. 
Commissioner Stanek has been a police officer, a Minneapolis 
police officer. He has been a State legislator. Sheriff McGowan 
has been a State legislator and law enforcement person. They 
know these issues. Mayor Brede, like you, I have been on the 
job just a couple months, but to have a city like Rochester, 
which is an international city, and yet it's not a New York, 
not a Chicago.
    And Mr. Nevanen, as I sit here and listen to a town of 
5,900 be worried about Anthrax and weapons of mass destruction, 
and having again spent time in The Falls, and seeing the border 
traffic, and the immense demands placed on the local level. And 
I know who they are. I can't tell whether it's a Democrat or a 
Republican, but I know that he has got some things that he has 
to deal with to protect the people of his community. So there 
are some big needs. And I am glad, by the way, that the VACIS 
system--just last week International Falls was informed they 
would be getting one of those systems, so I think we are making 
headway. Let me turn to the questions.
    Commissioner Stanek, kind of following up with my question 
in the first round here, the communications, you mentioned in 
your testimony CrimNet. I am interested in the ability of that 
State trooper that comes under your jurisdiction who stops 
somebody along the road right outside let's say International 
Falls or Baudette or Warroad or one of those areas, what kind 
of capacity do they have today to be tied into any national 
roads, and what can we do to improve that?
    Mr. Stanek. Well, Mr. Chairman, a couple of ways. One, 
CrimNet is the State of Minnesota's Integrated Justice 
Information System, and it will allow local enforcement, as 
well as corrections and judiciary, to share information across 
many disparate databases. Things that we cannot do now, but I 
think the public just seems to think that we can do. 
Specifically in terms of how well that State trooper up North 
knows if someone on a watch list or something else, there are a 
couple of ways. We get information on a pretty regular basis 
from the Federal Department of Homeland Security through NLETS 
messages or BOMA messages. If they are looking out for someone, 
they will send it to the State of Minnesota, we will distribute 
it back out to local enforcement and Minnesota's first 
responders.
    And then the second way, Mr. Chairman and Members, is the 
State of Minnesota ties the expiration of a driver's license or 
State identification card to a temporary visitor in this 
country. So someone who comes to our country and visits for 3 
weeks, 3 months, we do not issue them a Minnesota driver's 
license, or, really, that gateway identification card. It has 
an expiration status on it so that local law enforcement can 
pick up the phone, contact the Immigration Service 24 hours a 
day, and find out if someone is wanted or what action they 
would further like local law enforcement to take.
    Senator Coleman. What is the status of CrimNet right now?
    Mr. Stanek. The status of CrimNet right now is with the 
third year of a 6-year building phase, it has finally come on-
line in terms of the backbone which it has been built across 
Minnesota. And now some of these disparate information systems 
from local law enforcement and others are finally coming on-
line. We are always in need of additional funding. We believe 
CrimNet is a model nationally. We have spoken with Secretary 
Ridge about this. We have spoken with Director Mueller and 
Attorney General Ashcroft and his folks, and I think they see 
the promise of what CrimNet has to offer, both not only on a 
State level, but on a national level in terms of information 
and intelligence sharing.
    And Mr. Chairman and Members, I would just add that if 
someone asked me what homeland security was 20 months ago, 
homeland security were two independent words that didn't mean 
much in and of themselves. Today homeland security is all about 
intelligence, information sharing, emergency preparedness. 
CrimNet is intelligence and information sharing.
    Senator Coleman. Thank you very much, Commissioner.
    Sheriff McGowan, I am very interested in your Regional 
Response Team concept. I can tell you that in discussions I 
have had with some of my colleagues, the comment is made that 
not every community, for instance, needs a bomb dog. Not 
everyone. Talk to me about where we are at. What has to be done 
to make that a reality? How do you make that work?
    Sheriff McGowan. Mr. Chairman, I think what it takes is for 
people to forget the turf battle. Realize we have an infinite 
number of requests with finite dollars, and we've got to be 
smart how we use them. And I think a Regional Response Team for 
us, if I were to look at one, I would say in Minnesota, I would 
look at one within Ramsey County, to serve that portion of the 
metropolitan area; one in Hennepin County; one up in the North 
either in Duluth, or Itasca, somewhere across there, northwest 
of St. Cloud; and South down beyond Rochester. We have got to 
realize, we have got to share resources. And, as you said, how 
many bomb dogs can we have? How many bomb robots? And in 
preparing for an explosive attack, buying a bomb suit is 
entirely different from a Level A suit to enter a hot zone 
either as a result of a chemical or biological attack. So what 
we've got to figure out is how many pieces of equipment can we 
have? And as I said, don't forget, the shelf life on most items 
are only about 5 years. I hope we never have to use them. But 
if we do, we've got to make sure that the equipment is new, 
people are trained in it, know how to use it.
    And Mr. Chairman, I would say the same thing for funding on 
the Federal level. The Federal Government will not be able to 
fund everyone across the United States every year. Take the 
United States, perhaps divide it into five funding regions. 
Form within those funding regions ongoing funding every year, 
so within those regions, they can replace their existing 
equipment. They can make sure that money is available.
    Training dollars. We have got to have money to backfill 
staff--when I send a man or a woman to training for 8 hours 
during the day, I've got to still have somebody to do that job. 
Or if it's their day off, I've got to compensate them somehow. 
I need money to be able to train our people. And I think it's 
critical. We forget that we can't give somebody a piece of 
equipment once and expect them to become an expert. And, as I 
said, our ability to respond and use this, and without notice, 
is the key to our success.
    Senator Coleman. Sheriff, I look forward to working with 
you on this Regional Response Team concept.
    One follow-up question about training, flow of dollars. How 
is it working for you today? Is it working for the State, or 
block grants, working with the feds?
    Sheriff McGowan. It works both ways, Mr. Chairman. And I 
would say if there is a way to, first off, catalog what dollars 
are available through homeland security for what purposes, I 
mean, there's a variety of dollars when you look at whether 
it's the cops' office, whether it's through the Office of 
Domestic Preparedness, whether it's through Homeland Security, 
where do local officials--where do we go, to what internet 
site, to see what money is available through the Federal 
Government for what purpose? If it's for communications inter-
operability, where do I find out where that grant is applicable 
to and how much is available? If it's for equipment and 
training, where do I find that? So that would be critical for 
us to be able to--in terms of training dollars, we're right now 
in the process of through the State of Minnesota receiving some 
grant money. There will be round two of grant money. We had 
needs in Hennepin County--and Senator Collins, Hennepin County 
is the largest county within the State; 25 percent of the State 
population resides within our county, and it is home to our 
international airport, the Mall of America, our stadiums for 
our Minnesota Twins, Minnesota Timberwolves. Minneapolis is the 
hub of the downtown metropolitan area, along with St. Paul. And 
I would say that we need to have those dollars come on a 
regular basis.
    We were forced to cut out about a million dollars' worth of 
equipment that we need here that we have not yet received 
funding for. Although we are getting a million dollars' worth 
of equipment. That has to go, just within Hennepin County, to 
provide for fire, emergency medical response, law enforcement. 
And those dollars are--when you start talking about training 
and so forth, Senator, they're very much appreciated, but they 
need to come on a regular basis. Because, as I said, we can't 
train once or twice a year and provide the coordinated response 
that our citizens expect from us and that we as law enforcement 
professionals want to provide to our citizens.
    Senator Coleman. Thank you, Sheriff.
    Mayor Brede, kind of following up on the line of 
questioning about flow of dollars, I remember as a mayor at 
times being concerned about the block grant concepts, and 
saying, ``Hey, we would like the dollars to come directly to us 
at the local level.'' Can you talk about that, though, 
practically? Is it easier for you to access stuff working with 
friends right here at the State, working with Commissioner 
Stanek and his folks, or would you prefer a more direct line of 
contact between local municipality and Homeland Security?
    Mr. Brede. Well, we have enjoyed both, but I think the 
local connection with the State would be preferred.\1\ 
Certainly right now, the budget concerns within the State, with 
our local government aid, et cetera, is a major concern. But we 
have had a good relationship with the various commissioners on 
various fronts. So I think we would prefer that. I wanted to 
say, when you mentioned Rochester is an international city, a 
recent article in the local paper indicated that one out of ten 
people in Rochester was born outside of the United States. And 
so it's not only the visitors that are coming in, those people 
then are concerned about their security while being here. And 
just quickly, too, thank you for your staff coming down a 
couple months ago, led by Erick Mische to talk with both our 
county people and the city folks. But I think we've had good 
relationships with the various government agencies that we need 
to deal with.
---------------------------------------------------------------------------
    \1\ See Exhibit No. 4, Mayor Brede advised that he has changed his 
position on this matter and provided a clarification, which appears in 
the Appendix on page 108.
---------------------------------------------------------------------------
    Senator Coleman. Thank you very much. Let me follow up that 
last question to Mr. Nevanen. At the very local level, you 
mentioned a number of times in your presentation needing 
Federal funding, homeland security-related situations, whether 
it's goods or whether it's training. How do you access what you 
need? I take it there is not a single on-line website that says 
if we need dollars for this, this is where we go. At a very 
practical level, the local level, when you are looking at the 
need for increased training, who do you call?
    Mr. Nevanen. Well, that's a good question, and especially 
in the context of the budget problems that we are experiencing. 
Right now, it's been a two-pronged approach, wherein the locals 
have approached the State of Minnesota for those two assets. 
And we also look to the feds for some additional. But at this 
point in time, it's difficult. We are trying to envision what 
we are going to need, and then come up with the dollars to do 
that. And right now, those questions still remain unanswered.
    Senator Coleman. I hope that we can, as a result of this 
hearing and others, help answer that question. And I think 
that's really important.
    Thank you, Mr. Nevanen. Senator Collins.
    Senator Collins. Thank you.
    Mr. Nevanen, I want to follow up on the question that 
Senator Coleman just asked you. You mentioned in your testimony 
that your costs for homeland security, I think, have doubled 
you said. And that's quite a burden for a community fewer than 
6,000 people. How have you coped with those additional costs, 
and can you give us some idea of whether you have received 
funding from the Federal Government to help offset the 
increased costs?
    Mr. Nevanen. From a local perspective, it's gone from 
$40,000 to $80,000, which is very significant. And like some of 
the other panelists have mentioned, you have to do things--
everybody is asked to do more with less. But we have reached 
out to the State of Minnesota, and they have helped to some 
degree. But those needs are not going to go away.
    Sheriff McGowan mentioned the need for annual dollars for 
training, and to have the equipment, but to be trained on it, 
be proficient with it. And to continually answer the landscape 
is evolving all of the time, and needs to be evolving. To 
anticipate those and then pay for them is going to be a very 
big challenge, especially given the budget constraints that we 
are all working under. So it's going to be--I don't know if 
it's spaghetti feeds or what that's going to get us there, but 
it's going to be a need for real resourceful people.
    Senator Collins. I think your comments are so important, 
because it reminds us that it's not only the major metropolitan 
areas that have challenges for homeland security, but a border 
community such as yours, and the many small communities in 
Maine similarly are facing real challenges that are going to 
cost real dollars. And part of my goal is to make sure that 
funding formulas recognize that it isn't just population that 
determines threat or vulnerability.
    I was interested, Sheriff, in your comments about the 
myriad of grant programs for inter-operability. For example, we 
have found that there are five separate Federal grant programs 
that provide money at the State and local level, with the goal 
of making communications equipment compatible. And as far as we 
can tell, there is no coordination among those five Federal 
programs.
    I would like to ask you two questions. First--and I'm going 
to ask all of you this. Would it be helpful to have a single 
place within the Department of Homeland Security where you 
could go for information on all kinds of homeland security 
assistance, whether it's administered by the Department of 
Homeland Security, or whether it's like the COPS program, which 
may be administered elsewhere, or the FIRE program, which I 
guess is going to be brought into the new department. But would 
it be helpful for you to have one-stop shopping, if you will?
    And second, inter-operability is a major problem. We 
learned that on September 11. I would be curious from all of 
you what the status is in Minnesota of your communications 
equipment. Can your fire departments talk to your police 
departments? Can your municipal police departments communicate 
effectively via radio with your State troopers, your sheriff 
departments? What's the state of that?
    We'll start with you, Sheriff, and then go to the 
Commissioner.
    Sheriff McGowan. Mr. Chairman and Senator Collins, the 
answer to your first question, one-stop shopping. Yes, 
emphatically.
    Second, inter-operability. I've got a personal interest in 
this, Senator. In 1989, in another life, I served as a State 
Senator, and I put the first $500,000 into a bill to study the 
feasibility of an 800 megahertz radio system. Today, in 2003, 
that system has come to true fruition. We are implementing--the 
sheriffs--Hennepin County Sheriffs' Office, Senator Collins, 
provides dispatch service for 21 law enforcement agencies and 
19 fire departments. We could not talk before with our 
colleagues in Minneapolis. We could not talk with the other 
disparate PSAPS or public safety answering points within our 
own county. Today, we can do that. The State has built and 
funded the backbone system for an 800 megahertz radio system. 
While it started off initially in the nine-county metro area, 
and actually, we added two counties, Isanti and another county, 
because that was considered the metropolitan area for the 
Minnesota State Patrol. So we started there. And today we are 
implementing an 800 megahertz radio system. It is going to 
provide us the inter-operability that we need, because there 
isn't any of us as first responders that do not realize that 
communications is a key to success. We can plan all day long, 
we can have the best plans, we can have the best equipment. But 
if we cannot communicate, we can't execute.
    Senator Collins. Thank you, Sheriff.
    Commissioner, did you have any comments on those two 
issues?
    Mr. Stanek. Yes, Mr. Chairman and Senator. I guess I'm the 
one on behalf of Minnesota who is responsible for putting an 
inter-operable radio system statewide. Within Hennepin County, 
800 megahertz has come to fruition. You take it from 1989 to 
2003, that 14-year span, it's taken us a long time to get this 
far. But my job is to move into the rest of Minnesota, and I am 
committed to doing that over the next several years. There are 
a number of pieces of legislation winding their way through the 
Minnesota legislature, and hopefully that winds up a week from 
today. And if, in fact, those bills and authority come to 
fruition, you will see the statewide inter-operable radio 
system become a reality statewide, not just in Hennepin County. 
But, again, as I talked about earlier, homeland security, 
intelligence, information sharing, emergency preparedness; but 
the one thing that ties them all together is the inter-operable 
radio systems.
    Senator Collins. Thank you, Commissioner. Mr. Mayor.
    Mr. Brede. Well, I would applaud the Commissioner to say, 
``Let's get moving on that.'' Because our sheriff has made it 
very clear to me, as well as our police department, that we 
have an old analog system that right now is starting to die. 
It's gone beyond its life. And you can't replace them; there 
are no parts for it. So you are in a situation that we need the 
new digital system, the 800 megahertz, and the money isn't 
there to move into that. So you kind of hinge from both ways 
from an old system that is dying and a new one.
    When we had our joint emergency committee meeting, I asked 
about that, and all of the parties said, ``Well, our current 
system works great when nobody uses it.'' [Laughter.]
    But the minute you have to have two or three or more start 
talking to one another, it just gets bogged down, and you just 
can't. So anything we can do to move that along would be great.
    And certainly, the one-stop shopping, I think my previous 
career was with the Mayo Clinic, and we have done that with 
trying to make it easier for patients to get in, and I think 
that's the way to go. Anything we can do so that there is one 
number to call or one site to visit would be applauded greatly.
    Senator Collins. Mr. Nevanen.
    Mr. Nevanen. Senator, on the first point, the one-stop 
shop, I, too, would echo that. I would absolutely applaud that. 
Anything we can do in that regard.
    Second, from my perspective in talking to the various 
levels, small towns have always had to be resourceful, just 
because of limited resources. And I think we sometimes get 
caught up in technology, and technology is very sexy, and they 
are answering and helping in a lot of ways. But from our 
perspective, I think a lot of it is just relationships, and 
making sure that various levels are working together. And from 
what I have seen demonstrated, I mean, certainly the technology 
is needed, and the other items that these folks have spoken to 
is needed, but that the cooperation and the communication 
between the various agencies remains strong. Because that's 
really the key, I think, from the small-town perspective.
    Senator Collins. Thank you, Mr. Chairman.
    Senator Coleman. Thank you, Senator Collins, and thank you 
gentlemen.
    We're going to call upon our next panel of witnesses. I 
will go to panel three, but before we get started, we expect 
Senator Dayton to come around 10 a.m. or thereafter. And when 
he comes, we will give him an opportunity to make his opening 
statement. We may interrupt questioning.
    We welcome Captain Ray Skelton, the Environmental and 
Governmental Affairs Director of the Duluth Seaway Port 
Authority. Steve Leqve, Rochester Airport Manager. Michael 
Curry, Director of Security for the Canadian Pacific Railway in 
Minneapolis, Minnesota. And finally, John Hausladen, President 
of the Minnesota Trucking Association here in St. Paul, 
Minnesota.
    Gentlemen, I thank you for your statements. I look forward 
to your testimony this morning on how you are dealing with the 
need to tighten transportation security or maintaining the 
ability of legitimate traffic to move quickly. Pursuant to Rule 
6, all witnesses who testify before the Subcommittee are 
required to be sworn. At this time, I would ask all of you to 
please raise your hand.
    [Witnesses sworn.]
    Thank you, gentlemen. I understand that Senator Dayton has 
arrived, and I think what we will do is we will have Captain 
Skelton go first with his testimony, then hear from Mr. Leqve, 
followed by Mr. Curry, and finish up with Mr. Hausladen.
    And as with the last panel, after we have heard all of your 
testimony, we will then turn to questions.

  TESTIMONY OF RAY SKELTON,\1\ CAPTAIN, U.S. MERCHANT MARINE 
(RETIRED), ENVIRONMENTAL GOVERNMENTAL AFFAIRS DIRECTOR, DULUTH, 
                    AND DIRECTOR OF SECURITY

    Mr. Skelton. Good morning. For the record, my name is Ray 
Skelton, Captain, U.S. Merchant Marine, retired. I am the 
Environmental Governmental Affairs Director in Duluth, and 
since September 11, the Director of Security.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Skelton appears in the Appendix 
on page 54.
---------------------------------------------------------------------------
    As is the case of most ports, with very few exceptions, 
there are some ports that do have their own police departments, 
some ports that do have very large security forces. They're the 
exception, not the rule, except for a mere handful, such as New 
York, Los Angeles, Long Beach, the huge container ports. We do 
not have the facilities or the ability to generate funds for 
security purposes. In the port of Duluth, it is the world's 
largest seasonal port. We also rank number 17 in the United 
States, and overall. The situation there, however, is one of 
limited security requirements in general. The reason for that 
is that we are primarily a bulk port. How much security is 
required for a pile of taconite or a pile of stone? So we do 
have limitations.
    However, we do have some difficulties, in that we do have 
49 miles of shoreline in our harbor. We also have 29 active 
docks spread out over that 49 miles. We secure or are beginning 
to secure that very difficult situation.
    Just to go back a little bit, in our port, we had some 
heads-up warnings prior to September 11, which served us well 
at that time. In 1992, we had a thing we called a Toxic 
Tuesday. I've got to start checking my time, here. Usually have 
clocks everywhere. Toxic Tuesday was a large spill that went 
into the river from the rail car, and large clouds of benzine-
laden--large benzine-laden air came over the city of Duluth, 
and we were forced to literally evacuate the city of Duluth. We 
were completely unprepared for that event. Things went well. 
All of the various agencies pulled together immediately. We 
brought the Minnesota State Highway Patrol and some additional 
people up to give assistance to us. Things went well, 
incredibly well, when considering the lack of preparedness.
    Oklahoma City, 1993, gives us our second heads-up that we 
were indeed vulnerable. Fortunately, again, the FBI headed up a 
team and used the loose-knit organization that we created after 
the 1992 benzine spill as a regional security team. The 
analysts that went through the process of determining what 
level of risk was at the port and what the requirements were, 
we just sort of let it sit, but maintained certain levels of 
communication and tried to maintain an accurate list of 
designated people from the various agencies.
    On September 11, I'm not sure that we were the first area, 
first major port to have a regional security meeting, bringing 
in all Federal agencies; State, county and local, but on 
September 12, we held our first formal meeting of the Regional 
Security Team.
    Senator Dayton, certainly--should I just pause?
    Senator Coleman. Why don't we do this? Why don't we pause 
here, finish for a couple of seconds, let him catch his breath.
    Mr. Skelton. Certainly. Poor Senator Dayton has been 
subjected to me before, so I can just pick up right where I 
left off, Senator.

              OPENING STATEMENT OF SENATOR DAYTON

    Senator Dayton. I would just say briefly, Senator Coleman, 
that you are a brave man to position yourself between two 
Senators who just came back from Beijing, China.
    Senator Coleman. Both of whom, by the way, have the 
sniffles.
    Senator Dayton. The feeling of knowing I could clear a room 
with just one cough. [Laughter.]
    We have a serious homeland security issue in Minnesota 
today. We have to make sure The Wild win the second game of the 
series.
    Seriously, I want to thank you, Senator Coleman, most of 
all for convening, and putting together this hearing. And also 
you, Senator Collins, the Chairman of our Committee for being 
here and honoring us with your presence.
    I am sorry that I am late. I committed to the Freeman 
family, before knowing about this, to be at the Humphrey 
Institute to commemorate Orville Freeman's life, career, and 
share with them a proclamation to be put in the Congressional 
Record to commemorate his distinguished service to Minnesota. 
So I apologize. But I'm glad I'm here now.
    Senator Coleman. Senator Dayton, we are thrilled to have 
you here with us. I mentioned when we began this hearing what a 
positive thing I think it is in Minnesota to have in this 
Committee and in the ag committee two voices in Minnesota. And 
I think some of the instincts early on said we were going to 
cancel each other out. And I think, early on, the experience 
has been just the opposite on a number of issues with regard to 
both of these Subcommittees, an ag committee, whether it was 
dealing with renewables, or this Committee, dealing with 
homeland security, that we have had two voices speaking out 
very loudly, understanding what the needs are in this community 
and joining together. So I greatly appreciate your presence and 
participation in this hearing today.
    Senator Dayton. Well, I would be glad to come anyway, but 
when you are a Member of the Minority and the Chairman of the 
Subcommittee and Chairman of your full Committee are both 
calling your presence, you really try to show up. [Laughter.]
    Or you run your own series of risks. [Laughter.]
    Senator Coleman. Well, again, thank you for being here. 
With that, Captain Skelton.
    Mr. Skelton. Senator Dayton, fortunately had to--what was 
it, 3 weeks ago you had the hearing in Duluth? So he has 
already been through this. I'm surprised you didn't wait until 
after I was done before you came.
    We left off at September 12 when we had our first Regional 
Security Meeting. There were over 150 individuals at that first 
security meeting. Up through the first of 2002, we held weekly 
meetings, and it was all a matter of partnering, information 
sharing, intelligence sharing, and it was headed up by our 
local FBI director.
    Concurrently, we started the development of what we 
referred to as a Port Security Team. Now, when we deal with a 
seaport, we are starting to deal with two specific areas. And 
when I say ``specific areas,'' it gets difficult, because a 
port in itself isn't interfaced between those two areas. We 
deal with the Department of Homeland Security. We think they 
are doing an excellent job with the airports, with the 
Transportation Security Agency (TSA). We think that as they 
start coming to the seaports, they will give tremendous assist 
to us, because we simply do not have the capacity to provide 
security; TSA must provide that security for us. But also, we 
deal with the U.S. Coast Guard, so we have two areas of 
responsibility. We have the Homeland Security Department, and 
then we also have, although it is part of the Homeland Security 
now, the U.S. Coast Guard, specific maritime responsibilities. 
We are right in the middle of that. So trying to keep track of 
a multitude of security of the Department of Defense, Homeland 
Security, and, of course, our main security levels, which we 
mentioned very well. And we have had those for a long time, 
although one no longer exists.
    If we could get to a coordinated effort, where--and I don't 
know what the new color-coding system really does, because I 
deal primarily with maritime issues, we don't see a lot of 
change. But if we jump from our site level, things happen very 
rapidly. And the partnering that is going on in our region is 
working very well. Now, when we go to our Transportation 
Identification System, we'll have two types that we will deal 
with. The Transportation Workers Identification credential, 
which is handled on a Federal overall level, because the 
international traffic we get through is just fine. We also have 
an MMD, or Merchant Mariner's Document, that deals with our 
maritime security that are in the process of being reissued 
now. And then we have the biometric coordinated between the two 
systems so we don't have mass confusion. That would be 
excellent. I understand some of the cards that are being looked 
at now have the potential for three different biometrics in 
that card, which would be enough to compensate across all of 
the environments in the maritime community.
    Just in closing, I have a couple--I will deviate quite 
considerably from my prepared statement, but just a couple of 
things in closing. The partnership between industry and 
government has played an integral role in both imports. They 
need not only to maintain, but to enhance. The maritime system 
capacity has never been greater. Analysts project the 
transportation demands for goods and passengers will double in 
20 years and triple in 50 years. We face challenges related to 
the issues of homeland security. If there ever should be a 
terrorist incident in one of our ports, U.S. systems will come 
to a screeching halt, subjecting our country to economic 
paralysis. A mere glimpse of the potential impact occurred in 
last year's labor dispute with U.S. West Coast ports, which 
according to analysts, cost the U.S. economy $1 billion per 
day. Security is the No. 1 issue at our ports today. Congress 
has made additional allocations for these ports.
    However, we are keeping in mind that the roughly $200 
million designated for ports is far less than 5 percent of what 
is going to be required, according to the U.S. Coast Guard. 
Seaports clearly deserve as much funding and attention as air 
borders, as borne out by recent key recommendations on the 
Council of Foreign Relations, that urged, ``Recalibrate the 
agenda for transportation security. The vulnerabilities are 
greater, and the stakes are higher within the sea and land than 
commercial aviation.'' Now, I ask you to take note, the 
administration budget, which was released February 3, includes 
no money for port security. We would urge you to add money in 
the budget for seaport security. Thank you very much.
    Senator Coleman. Thank you, Captain Skelton. And without 
objection, we will have your entire written testimony entered 
as part of the record.
    Mr. Skelton. Thank you. There's other issues in there that 
I couldn't get in in 5 minutes.
    Senator Coleman. It will all go on the record. Mr. Leqve.

    TESTIMONY OF STEVE LEQVE,\1\ AIRPORT MANAGER, ROCHESTER 
          INTERNATIONAL AIRPORT, ROCHESTER, MINNESOTA

    Mr. Leqve. Senator Coleman, Senator Collins, and Senator 
Dayton, thank you for the opportunity to be here. For the 
record, my name is Steven Leqve, General Manager of the 
Rochester International Airport. But I might add, as the past 
Chairman of the Minnesota Council of Airports, and State 
representative for AAAE, the American Association of Airport 
Executives, I would like to make some comments not only 
pertaining to Rochester, but collectively from airports that I 
have talked not only within the State of Minnesota, but also 
outside the State as well. And I have some positive comments to 
make as it pertains to the Transportation Security 
Administration (TSA).
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Leqve appears in the Appendix on 
page 61.
---------------------------------------------------------------------------
    At least it has been our experience, locally, as well as 
other airports, once again, as I said I had talked with, about 
the implementation of the TSA and how very well it has gone 
within the State of Minnesota and nationally. It has gone 
extremely well for the size and the undertaking that we were 
forced to deal with. The public feedback that we have received, 
not only in Rochester, but collectively, as well, has been very 
positive. So that we can be very thankful for, as well. The 
comfort level of the traveling public is back. The relationship 
between the TSA in Rochester and the Rochester Airport company 
employees has been very positive as well. So we have some very 
well-trained, very professional people that we are dealing with 
at our location. All positive signs.
    However, the one thing that I would like to see a change 
in, at least over time, is the authority to the local TSA work 
force. Additional authority passed on to those individuals when 
things are levied down from the Federal Government in terms of 
mandates, that the local Federal security directors who are 
responsible for their facilities, who understand and know the 
facilities, the one-size-fits-all concept does not work in this 
industry. All airports land and take-off airplanes, but all 
airports function differently, and the structure is different. 
And the Federal security directors, if they had more ability 
and more authority in the implementation, not jeopardizing 
security in the end result would be extremely beneficial. And 
that is basically a comment that is shared nationally, as well. 
And we see it at our facility in Rochester.
    The termination of the reimbursement for law enforcement 
officials at the security checkpoints or at the airports I 
think is a negative move in the industry. Typically, your 
category X, 1, and 2 airports, your larger airports across the 
Nation, have police departments and security personnel in 
place. Your category 3 and 4 airports do not. Rochester and 
Duluth are category 3, but the rest of the airports outside the 
Minneapolis International are all category 4. I can tell you 
from experience in talking with airline personnel, as well as 
the traveling public, the law enforcement--their being at the 
airports, if you will--presence, I'm sorry, that's the word I 
was looking for, has been a very positive thing. In the case of 
Rochester, not that we're anymore unique, but quite frankly, we 
do have a lot of unique activities almost on a daily basis. 
High-profile people move through our community daily. Quite a 
bit of international activity, not all commercial. A fair 
amount of that is private, as well.
    Having that kind of presence at the airport, I think, is 
extremely important, and I think moving away from that, where 
we are into a 15-minute response time to security check points 
in the event of a mishap is something that is just truly not 
workable. So funding needs to be in place, at least for both 
sizes of the airports that do not have those individuals or 
staffing on-site to handle that. As I said, your category X, 1, 
and 2, most of them do have their own law enforcement in place.
    I might just close by also saying that when mandates come 
down to airports that would require physical changes to 
facilities, we really truly need to have funding in place. And 
not the airport entitlements program. In other words, the AIP 
program. The airports need to have that program preserved, as 
well for infrastructure improvements and just ongoing 
maintenance to our facilities.
    Senator Coleman. What's the AIP program?
    Mr. Leqve. The Airport Improvement Program through the FAA. 
And with that, I thank you very much.
    Senator Coleman. Thank you very much. Mr. Curry.

 TESTIMONY OF MICHAEL CURRY,\1\ DIRECTOR OF SECURITY, CANADIAN 
            PACIFIC RAILWAY, MINNEAPOLIS, MINNESOTA

    Mr. Curry. Mr. Chairman, Senators, my name is Mike Curry. 
I'm with the Canadian Pacific Railway. And with me today are 
John Apitz, Councel for the Minnesota Regional Railroad 
Association, and Phil Marbut, who is Canadian Pacific Railway's 
Manager of Dangerous Goods.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Curry appears in the Appendix on 
page 62.
---------------------------------------------------------------------------
    It's an honor to appear before your Subcommittee today to 
discuss matters of homeland security as involved in the 
industry, and I would like to offer a broader perspective of 
our industry regarding the efforts it's already undertaken to 
improve security. Railroads are vital to the national economy, 
the national defense, and public health. Seventy-four percent 
of all freight goes by rail, including 60 percent by electric 
utilities. The chemicals used to purify the nation's water 
supplies and fertilize our crops move by rail. And railroads 
provide critical support to the Department of Defense's 
Strategic Railcar Network, STRACNET, which includes 30,000 
miles of rail line, and provides the backbone for the movement 
of DOD shipments. The railroad network of tracks, bridges and 
terminals presents a huge security challenge. It includes about 
130,000--this is nationally, better than three times the length 
of the interstate highway system. Much of it is in isolated 
areas. Fencing is neither practical nor effective. Furthermore, 
securing our infrastructure is only one part of the railroad 
security challenge. Securing the operations of our railroad 
adds the further challenge of anticipating unplanned 
occurrences while trains are en route.
    When America came under attack on September 11, the 
railroad industry responded rather swiftly, working closely 
with local, State and Federal authorities, and utilizing their 
own police forces, railroads increased inspection and patrols, 
restricted access to key facets, briefly suspended movement of 
particular freight in the New York areas, and changed certain 
operational practices as anti-terrorist measures. And because 
enhanced security has become a long-term necessity, the board 
of directors of the Association of American Railroads, made up 
of the CEOs of North America's major freight railroads and 
Amtrak, as well, established a mandate to ensure that the 
railroads would be more secure each day. Using CIA and national 
intelligence community best practices, five critical action 
teams--with the involvement of some 150 rail industry security 
and intelligence personnel--were established to scrutinize 
different aspects of the railroad system. The rail security 
task force developed a comprehensive risk analysis and security 
plan that establishes four alert levels, and describes a 
progressive series of actions to thwart terrorist threats to 
national railroad personnel and facilities. It also includes 
additional measures to be applied in areas of operations, 
information technology, communications, and security. Some of 
the actions taken since September 11 include increased cyber 
security, restricted access to railcar location data--on-line, 
that is--spot employee identification checks, increased 
tracking and inspection of shipments, and use of new encryption 
technology for selected data communications, as well as 
increased security of physical assets and increased employee 
training to ensure that the industry has more than 200,000 
employees serving as the eyes and ears for our security effort.
    With military action against Iraq, the industry has taken 
additional security steps, including real-time monitoring and 
additional surveillance of designated trains, increased 
security of certain rail yards, increased inspection of track, 
and coordination with customers to tighten control of supply 
chain logistics. These and similar steps are being taken at 
international rail crossings to secure shipments into the 
United States and neighboring countries. The challenge before 
our sector of the transportation industry is similar to that 
facing others--how to assure security of our transport system 
without seriously hindering the efficient flow of rail 
commerce. However, while our rail network is vast, securing the 
transportation of massive quantities of freight across the 
Nation requires the cooperation of authorities at the national, 
local and State level on a daily basis. We need to be able to 
better communicate among ourselves before, during, and after a 
critical incident. And we need to plan and rehearse our 
response long before and not after one occurs. We need to share 
information amongst ourselves and have a mutual understanding 
of capabilities and restraints of each section's response. 
Freight railroads remain in constant communication with the 
U.S. Department of Transportation security personnel, the FBI, 
the National Security Council, and with State and local law 
enforcement officers. The industry also has in place plans to 
respond immediately to threats to the transportation network. 
The Railroad Security Plan is a living document, because the 
risk assessment process is a continuous one. As conditions 
warrant, that plan will be updated, revised and strengthened--
and it has been. The national industry is committed to moving 
forward aggressively to ensure the security of its 
infrastructure and continued service to the Nation.
    Senator Coleman. Thank you very much, Mr. Curry. Mr. 
Hausladen.

 TESTIMONY OF JOHN HAUSLADEN,\1\ PRESIDENT, MINNESOTA TRUCKING 
                ASSOCIATION, ST. PAUL, MINNESOTA

    Mr. Hausladen. Good morning, Mr. Chairman. Good morning, 
Senator Dayton. Welcome to Minnesota, Senator Collins. My name 
is John Hausladen, President of the Minnesota Trucking 
Association. Thank you for the chance to talk today about truck 
transportation, border security, and homeland security.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Hausladen with attachments 
appears in the Appendix on page 65.
---------------------------------------------------------------------------
    I will give you a brief overview of truck crossings over 
the border, and then focus on two issues today; one is cargo 
theft, and the other is the trucking industry's anti-terrorism 
action plan that we developed.
    First, border security. I think, to put things in context, 
we should note there are about 750,000 entities who are 
registered with the Federal Motor Carrier Safety 
Administration. The American Trucking Association estimates 
about 500,000 are actively engaged in transportation of 
freight. Long story short, there's a lot of folks operating 
trucks around here, and hauling freight across borders, and 
NAFTA has certainly increased that.
    The implementation of NAFTA, which grew U.S. trade with 
Canada from about $210 billion annually in 1993 to $379 billion 
in 2002, has, as you can imagine, concurrently increased cross-
border truck traffic. According to the Bureau of Customs and 
Border Protection, the southbound crossings at the U.S./Canada 
border have increased during that same 9-year period from about 
5 million to 7 million. And given this explosion of cross-
border traffic, processing speed becomes a major issue, 
particularly at the crossings on the eastern half of the U.S. 
and Canada.
    Now, we heard some things earlier that we want to applaud. 
We continue to urge them to be used. The use of the gamma ray 
systems for inspection, where you can take a picture and look 
inside is very good, very helpful. We think the implementation 
of the C-TPAT systems that provide preclearance are very 
important. But one of the things, when I talk to my members 
about border crossings that they suggested was, ``It's 
interesting, these tend to be at rivers, tend to be at bridges, 
yet we have big trucks in a small space, and now we are 
physically trying to inspect these big things. And is there a 
way to remove some of this commercial vehicle enforcement and 
inspection further back from the gateway to possibly help, or 
get them through to the other side and further away?'' There 
are literally bottlenecks that commercial vehicles create that 
we may want to take a look at.
    The second issue is cargo theft. The highjacking of 
trailers and their contents remains a major security concern 
for the trucking industry. Cargo theft has increased. This is 
an amazing figure, 30 percent nationally, over the last 3 
years, now mounting to between $12 and $20 million annually in 
losses. And while the high-jacking of a trailer full of high-
end electronics like DVD players going to Best Buy may not get 
us worried from a security perspective, a high-jacked trailer 
full of hazardous materials takes on a whole new meaning since 
September 11. And unfortunately, cargo theft has routinely been 
a low priority for local law enforcement. Why? Well, truck 
trailers are, by their very nature, mobile. And they cross 
jurisdictions. You take this dynamic, and an already 
overburdened law enforcement, and it's easy for local law 
enforcement to avoid taking ownership of a theft. We must work 
to change the mentality that says, ``Well, it's probably out of 
my jurisdiction already, there's probably nothing I can do 
about it, let someone else worry about it.'' We have seen that. 
But now, with the security concerns that have come forward, we 
have to pay closer attention. What we recommend is a more 
aggressive response to cargo theft by local law enforcement and 
angencies like the FBI which is critical to closing this 
significant gap in our homeland security system.
    And last, our response as an industry to the terrorist 
threat. The trucking industry has developed its own anti-
terrorism action plan. It was created by a partnership, and you 
have heard that a lot today, a partnership of 65 State and 
national industry groups, including the Canadian Trucking 
Alliance, so it is international, with one clear goal, to 
prevent the use of trucks as a weapon. It's a tall task. I 
would like to submit a copy of that plan for the record, and 
that's been provided to your staff.\1\
---------------------------------------------------------------------------
    \1\ ``The American Trucking Industry's Anti-Terrorism Action 
Plan,'' May 2002, appears as an attachment to Mr. Hausladen's prepared 
statement which appears in the Appendix on page 67.
---------------------------------------------------------------------------
    Senator Coleman. Without objection, it will be entered into 
the record.
    Mr. Hausladen. Thank you. The key component of our plan is 
the recruitment and training of professional truck drivers to 
help them take ownership of security within their own ranks. We 
identified the need to specifically train professional truck 
drivers in how to recognize, observe, and then report potential 
terrorist operations. Highway Watch, a long standing program 
between the ATA and the Federal Safety Administration, was 
identified as an ideal means to launch such an effort and 
accomplish the other technical objectives placed in our anti-
terrorism action plan. With the potential pool of 3 million 
truck drivers, and these are professionals, on the road every 
day, they are a community out there. The trucking industry 
launched an effort to secure funding to enable these objectives 
of the plan to train them to be the eyes and the ears, if you 
want: A neighborhood watch on wheels.
    Well, thanks to the three of you, through the Supplemental 
Appropriations Bill, you did appropriate $20 million to expand 
the Highway Watch Program. But unfortunately, the 
Transportation Security Administration has yet to release those 
funds. Now, if I accomplish nothing else today, it would be to 
impress upon you the need to expedite the release of those 
funds and put them to work, protecting our vital truck 
transportation system.
    Two topics, I won't go into detail, but are certainly 
equally important are hazmat regulations and how transportation 
of that is regulated, and a plethora of new rules, which, 
frankly, to the small trucking company trying to learn and 
manage and train is very challenging. And second, just kudos to 
the Minnesota State Patrol for their training of local law 
enforcement on how to profile what trucks to inspect.
    In conclusion, let me say that when it comes to major 
truck-related security issues, technology will be a useful 
tool, but perhaps not the most critical. The trucking industry 
believes that our true success in defeating terrorism depends 
on making sure that people know what to look for, and as you 
have already highlighted, how and where to report it. Again, 
thank you for the opportunity.
    Senator Coleman. Thank you very much, Mr. Hausladen.
    Two observations before we begin our round of questioning. 
I can assure you that we will go back and check with the TSA 
about the funds, and certainly if the Chairman of the 
Governmental Affairs Committee makes a request like that, 
people respond. And the Chairman of the Subcommittee will make 
a request, and it will be done in a bipartisan way. So we will 
go back and take a look at that.
    Second, when you mentioned the concern about cargo theft, 
and that tends to be a focus, I did note the U.S. attorney was 
writing that down. I would hope in his comments to this 
Subcommittee, which will be included as part of the record, 
that we do address the focus that we're giving today, and what 
we can do to improve that.
    The observation I have with this panel together as I have 
on a personal level, not just as a Senator, but also as a 
citizen, I think about issues of homeland security. I have 
concerns about the enormous truck trafficking, the incredible 
amount of rail volume. The concerns of a category 3 airport as 
really an international airport, or in their reference to 
Duluth, a port that is a huge port.
    I have two questions for the panel: First, if you could 
address--are you confident as we sit here today of your ability 
to meet the threat of terrorism? Are you confident today? And 
second, on the other side of the question is really an economic 
question. As we do improve the measure of security, my concern 
is about the continued vitality of our economy, that will keep 
traffic moving. We've got to keep international visitors coming 
to Rochester, have got to keep these ports moving. Are there 
areas where efforts are too restrictive on the economic side? 
Are we doing things that are slowing things up unnecessarily? 
With that, I'll go in reverse order. Mr. Hausladen.
    Mr. Hausladen. Well, first of all, I think the trucking 
industry is like every industry; in the process of figuring out 
how to do things. We do think the Highway Watch Program is 
going to be great. And when we rolled it out to truck drivers 
and said, ``What do you think about this, if we train you and 
work with law enforcement and give you tools,'' they were 
ecstatic. Because, unlike a lot of moms and dads, it's hard to 
give back to the community. They're gone all of the time. But 
they view the road as their work place, and they are creatures 
of habit. They know what looks normal, they know what looks 
abnormal. There's a lot of chatter on the CB and the 
truckstops. And if we train them on what is unusual and what to 
report, we have a tremendous Army. We have America's trucking 
Army out there to do that job.
    I think on the second question about vitality, again, when 
I called members and polled them on what is happening in the 
borders today, we see a difference. If you are a truckload 
carrier, who are hauling truckloads, they're moving very 
efficiently. There has not been a significant decrease in the 
amount of--or increase in the amount of time it takes to get 
through. If you are hauling less than a truckload, where it's a 
pallet of this and a pallet of that, or there's mixed loads, 
during the time it takes to do the inspection it has gone up 
about 25 percent. So a mixed bag of good news and bad news. 
Because, overall, I would just harken back to the issue about 
the economy. If heaven forbid, there was another terrorist 
attack and a truck was involved, we know that every truck would 
be stopped. After September 11, we saw the City of Minneapolis 
literally close its borders and inspect every truck going in. 
That's a problem. Because we know that in grocery stores, we 
only have so much food. If this went on for an extended time, 
we're going to affect vital basic services. Again, our State 
Patrol, the Commercial Motor Vehicle Division, did a great job 
working with the City of Minneapolis and talked about what kind 
of trucks to look for, how to inspect. I think that sort of 
training, using Minnesota as a model and taking that 
nationwide, would be a tool to help keep the engine of the 
economy rolling.
    Senator Coleman. Thank you very much. Mr. Curry.
    Mr. Curry. Am I confident that we are able to meet the 
threat of terrorism? I'm confident we're doing the best we can 
with the resources that we have. But we could use more, and 
those resources cost. I don't know what our availability for 
access to the funds would be from the government. I understand 
there are a number of bills that have been presented in 
Congress since September 11. And what the status of those are 
and what the fall-out is as far as money, money coming down for 
security, for money interest in railroading, I can't say.
    As far as restrictions, we have enjoyed a decent 
relationship with the Border Patrol, with Customs. We are 
involved in Detroit, not here in Minnesota, but in Detroit, the 
Integrated Border Enforcement Team. The restrictions--I guess I 
would have to reserve judgment, because we are scheduled to 
receive here in Minnesota, as well as four other crossings, 
VACIS machines, and we'll have to see how that works out, if 
traffic's held up.
    Senator Coleman. Great. Thank you very much. And Mr. Leqve.
    Mr. Leqve. OK. In terms of confidence, I don't think there 
is any question that within our airport system we are doing a 
better job, more professional. I think technology is going to 
continue to play a huge role in our industry. As to how we 
screen people and luggage and freight, I don't think there is 
any question. And so as far as restrictive, I think once again, 
over time, I don't think we're being too restrictive now. 
That's not what I am hearing from the traveling public. As I 
indicated earlier, I think that's all been quite positive. But 
we're doing a better job. Can we do a better job? Sure. And we 
will, with the use of more trained personnel. And, once again, 
technology is going to play a huge role, I think, in this 
industry.
    Senator Coleman. Great. Thank you very much. Captain 
Skelton.
    Mr. Skelton. There is a broad array of issues when we start 
dealing with the level of confidence or dealing with our 
vulnerability or overall risk. The way I would have to answer, 
rather than going into the details of it, is I would say, 
because of the advanced preparation work that has been done on 
both the Federal, State, and local level, that our confidence 
level is actually quite high. Are we vulnerable? Yes, we are 
highly vulnerable. Forty-nine miles of waterfront is not 
securable. You just can't do that. I'm sorry, you could, but 
you would be spending billions of dollars to do it. And we 
don't have that type of--I'm sorry, I shouldn't impose a 
number, because I don't know what it would cost to do that. It 
would be unreasonable. So overall confidence level, I think in 
our commuters and in our ports, they're quite high.
    Restrictions. Not yet. We have not experienced severe 
restrictions, but we haven't gone to marine security level, or 
mar-set level 3 yet. Should we go, we are dealing with specific 
threats. Should we go to mar-set level 3, I am concerned that 
we would have restrictions. There are national standards set 
there as to what is required of the U.S. Coast Guard response 
and the FBI response. If possible, we must keep the 
decisionmaking process on security requirements local. Our 
local marine safety office, we usually call them the Captain of 
the Port is fully capable of making security decisions for our 
port and region. Second, the District Coast Guards formed what 
they call the Waterways Forum.
    We have a Subcommittee on security that is going to make an 
attempt to address the Great Lakes Navigation System. The 
reason for that is overseas vessels entering our system are 
inspected first at Montreal. And there are--the less beyond 
that, the lesser crew changes or changes in members of the 
vessel itself. The security risk is really very limited. And we 
already have the system in place where those people that are 
from questionable origin or they have questions about their 
citizenship, they are referred to as detainees, the vessels 
that are required to post the guard. So we haven't experienced 
extreme restrictions yet, but if things get out of hand or they 
decide on a national level, they could get out of hand very 
rapidly.
    Senator Coleman. Thank you very much. With that, I will 
turn to Senator Dayton.
    Senator Dayton. Thank you. I'll defer to the Chairman of 
the Committee. We call them chairs now in Minnesota. And I 
don't know if we need to refer to them as Leaders of Peace---- 
[Laughter.]
    Senator Collins. Whatever is politically correct. But thank 
you for your graciousness. I just have a few questions.
    Mr. Hausladen, the TSA recently issued new regulations 
requiring background checks on commercial truck drivers in 
order for them to be certified to carry hazardous waste. Could 
you share with us your views on those new regulations?
    Mr. Hausladen. We have a couple concerns as an industry. 
One would be the turnaround time it's going to take to conduct 
the background checks because of the flow into the State, up to 
the feds, back. And what we get back, basically, is going to be 
whether they are approved or not to haul hazardous materials. 
But as employers, we will know nothing about if they're 
rejected, why they are rejected. The industry would like, 
actually, more access to the information obtained from criminal 
background checks, because not only in the hauling of hazardous 
materials is it important, but in the hauling of anything, it 
is very important. You want to make sure we are putting safe 
drivers on the road.
    I think the other issue, with background checks in general, 
and Mr. Skelton referred to that, we now have a variety of 
different types of background checks and I.D.s that drivers may 
potentially have to have, depending on where they are going. 
And if they are hauling intermodal or going to a port, they may 
need multiple checks and I.D.s. We prefer one transportation 
worker I.D., that if you get all of the multiple stamps on it, 
you are eligible to go on whatever facility that's needed, 
because if it's a good background check, it should serve all of 
them.
    Senator Collins. Thank you. Captain Skelton, there was a 
study released recently that suggested the Coast Guard was 
being stretched too thin in the wake of September 11, and that 
it was unable to perform some of its traditional fisheries 
enforcement and other duties because so many of its resources 
have been diverted to Port Security. Could you share with us--
since you're right there on the front lines--your observations 
about the Coast Guard's ability to handle all of the new 
responsibilities that it has?
    Mr. Skelton. Thank you, Senator. The U.S. Coast Guard has 
requited themselves admirably since September 11. As the Coast 
Guard was assigned additional responsibilities, such as the war 
on drugs, some war interdiction processes, there was no 
additional funding for--traditionally the Coast Guard was voted 
to 25,000 people. And as a matter of fact, I would like to 
thank the three of you personally, because now with the 
increased authorization, or the removal of the cap, the 35,000 
managing skills of the U.S. Coast Guard, now they have a 
chance. With the additional funding that was given for the U.S. 
Coast Guard, now they have a chance. However, right now they 
are stretched so very thin. When we were at security level 2, 
there are increased requirements for security nationally when 
you go in a public hearing. The details--and I would be very 
happy to host anyone up to the port of Duluth to go through it 
in detail. Their manning has been just exhausted. The return of 
marine security level 1 happened on a very timely basis, 
because we were running out of manpower. So it's going to take 
some time to put out an additional 10,000 Coast Guard 
personnel. It's going to take time to train them. It's not 
going to happen overnight. And I would be happy to talk to the 
ninth district and the Coast Guard headquarters and relate the 
information as to what they feel the timing of that is. But 
right now, they are stretched very thin, dangerously thin, and 
I'll get that information as to exactly how long it's going to 
take them.
    Senator Collins. Thank you, Mr. Chairman.
    Senator Coleman. Thank you, Senator Collins. Senator 
Dayton.
    Senator Dayton. Senator Collins, after less than a year of 
being on the Committee, the discussion was on what to give to 
the Coast Guard. I realized then, with Senator Stevens being 
the Ranking Member and now the Chairman of the Senate 
Appropriations Committee and the Senior Member of the 
Governmental Affairs Committee, that the primary purpose of the 
U.S. Coast Guard is to ferry the citizens of Millaca back and 
forth at taxpayers' expense. [Laughter.]
    But when you said, Captain, that the cost of securing 49 
miles of coast line would be prohibitive, which I agree, it 
would be, I wondered then how many miles of the coast line of 
Maine would also have to be secured.
    Senator Collins. Many more.
    Senator Dayton. So I would like to follow up with the 
question that Senator Coleman asked you. What really is the 
scale and scope of this challenge, and how do we provide the 
kind of security that all Americans want without interfering 
and totally delaying transport and trade?
    In your industry, what percent of the cargo is actually 
physically inspected at international crossings? If it's not a 
hundred percent, and I suspect it's not, is it close to a 
hundred percent? How much time delay would physical inspections 
of all cargo add to the system? Let me start with you, Captain.
    Mr. Skelton. Senator, we do actually have the information 
relating to that. Prior to September 11, 2 percent of the cargo 
entering the United States was fiscally inspected. We're 
dealing in container traffic here at this point, because 
nationally, bulk cargos, you just stand there and watch as it 
is being loaded or unloaded. It's not a matter of a security 
issue. But the container traffic, they estimated that prior to 
September 11, 2 percent was the inspection level. In the last 2 
years now, they're up to 4 percent. To go to 100 percent would 
take some rather vast increases in technology ability so they 
could do it rapidly without completely crippling the ports. The 
Customs Trade Partnership is working very well. Even though 
there are cargos that are not being physically inspected, as an 
indication of the trucking industry, if they are full container 
zones.
    Senator Dayton. So a full increase, from 4 percent to 100 
percent would mean 25 times more inspections.
    Mr. Skelton. Yes, sir.
    Senator Dayton. Thank you.
    Mr. Leqve. Quite frankly, we don't have a lot of 
international cargo that travels in and out of our facility. 
Most of that is handled by Federal Express and Airborne. And 
those items are actually cleared at their main base before it 
actually arrives.
    Senator Dayton. Any indication on how much?
    Mr. Leqve. I couldn't tell you. I'm sorry.
    Senator Dayton. Mr. Curry.
    Mr. Curry. I don't know for a fact, but it's nothing more 
than 2 percent. However, with the vehicle and cargo inspection 
system, the VACIS machines being installed, we expect that 
there will be an increase to the level of confidence of the 
cargo that is coming through.
    Senator Dayton. You can get one that International Falls 
has at the end of it.
    Mr. Curry. Our crossing, the crossing at Noyes, as well.
    Senator Dayton. Thank you. Mr. Hausladen.
    Mr. Hausladen. Senator, no, I do not have a number. The 
percentage, I do know it's a small percentage at this time. 
Also as a function of the threat level, there's less that's 
going on now. And, as we said, the gamma ray systems are very 
good, but I think it's a matter of triaging freight, too. If 
you have freight that goes back and forth regularly like logs, 
that's a different commodity than if you have a sealed cargo 
container coming across. So you have focused resources on those 
freight pieces that are perhaps most suspect.
    Senator Dayton. In all, the point we are trying to make is 
just now relatively few inspections are actually being done, 
and the need to do many more. If the same time, more means we 
would really be prohibiting the flow of goods into our country. 
I appreciate your comments about the Transportation Security 
Agency, because the government seldom gets kudos for doing 
anything well these days, and in my own observation and 
experience, and also from talking about this with passengers, 
flight attendants, airline pilots, and Senators about their 
personal experience, flying in and out of our airports. I think 
all agree the professionalism, the quality, and the consistency 
of inspections from site to site around the country has greatly 
improved. I think that is very important to the traveling 
public.
    But I wanted to go back to your concern about the funding 
for the law enforcement at airports of your size. Can you 
verify for me exactly where the funding comes from? Is it 
Federal? And what would need to be added or removed?
    Mr. Leqve. OK. Thank you, Senator. Yes, currently the 
funding is coming through the TSA. And that is due to sunset at 
the end of the month, at the end of May.
    Senator Dayton. That's regular funding--is it prorated, or 
is this a special appropriation?
    Mr. leqve. Actually, the communities actually have an 
agreement, a reimbursement agreement, that is in place with the 
TSA. And once again, that will go away at the end of May. As I 
indicated earlier, the category X'es, 1's and 2's typically 
have law enforcement on staff. Whereas, in our case, we do not. 
I think it's important to maintain that type of level, and a 
couple of reasons why. One, it's been well received by the 
community. And I think as well as providing security, we want 
the traveling public to feel secure, as well.
    Two, if the threat level were to change from its current 
yellow to orange, that is a requirement under today's 
guidelines that we must have law enforcement on-site at the 
security checkpoint. So we always run that risk. I hope that 
will not be the case, but nevertheless, if it is, at least we 
have things in place, and so we are complying with the 
regulations as they exist and as they tend to come out of 
Washington. I think it's very essential. At least your category 
3 airports, funding is available during air carrier operations. 
Some of your category 4 airports, they may have four or five or 
three operations a day. Maybe just providing funding during 
those time periods would be very helpful, as well.
    Senator Dayton. On behalf of the local officials and the 
airport manager at International Falls, a mandate and very real 
expenses have been placed upon them as well. So thank you.
    And just a last question, Mr. Chairman. Chairman Collins 
has really been terrific about getting the chance for local 
officials to comment about the inefficiencies that exist in 
funds provided by Congress that are not being made available or 
existing barriers, hurdles, in terms of the application and 
approval process. And I know, Madam Chairman, you helped carry 
this subject in Washington. And it would be a great chance to 
hear that you are speaking to these people. Since Senator 
Coleman is certainly not in the Minority party in the Senate, 
he doesn't realize that when you are, and especially when your 
party is not the administration, that you don't have quite the 
same impact with your own phone calls that the two of you will 
have. So I will put myself in a separate category. But 
seriously, you really are in positions of great influence. And 
I will do my best, as well.
    But if there are any further elaborations or blanks you 
want to fill in, or suggestions, these are good people to talk 
to. And I will start with the other end. Mr. Hausladen.
    Mr. Hausladen. I think I have adequately covered it, with 
one exception, and that is food transportation is sort of a 
different animal. It's not in boxes, generally. At a certain 
point, it's coming out of the field. And again, in talking to 
some of our members, we do have significant cross-border 
traffic of food in various stages, and this is a new priority 
for the Federal Government for inspection. And I guess the 
question is, this is such a new area, do we need to treat food 
somehow differently? We want to protect it, we want to make 
sure it's not contaminated, but it's morphing; it's always sort 
of changing form. And before we get hard and fast in how we 
regulate that, let's make sure the food manufacturers, the 
companies like the General Mills based here in Minnesota, let's 
get operations people involved in some of that discussion. 
Thank you.
    Mr. Curry. Well, I echo the comment. When you brought that 
up, the border folks that handle the port of services may be 
aware of the hearing here today. They mentioned that the FDA 
has recently taken a keen interest in food stuffs moving in the 
country across the border. And we have had for some time an 
arrangement by which Customs is able to extract from our 
commuter systems information on the manifests of materials that 
are coming across. FDA is in the initial stages of discussing 
this, but if the FDA is looking for some other special 
treatment, their own information is available. If they could 
somehow work through Customs, with Customs, they get into that 
same system, which would take care of it, but I think their 
talk is scheduled.
    Senator Dayton. My time is being trailed. Others, can you 
comment?
    Mr. Leqve. We have covered everything, and I appreciate the 
opportunity.
    Mr. Skelton. In the Ag Department, of course, the Port of 
Duluth is responsible for approximately 4 million metric tons 
of grain per year in movement through the port. They're being 
transshipped, or shipped directly overseas. Our security 
concerns in that area are more on domestic levels, some 
interruption in that process than in that transfer, because 
once the ship is sealed up, it's quite safe.
    Senator Dayton. Thank you. Thank you, Mr. Chairman. Thank 
you for your leadership, and thank you for inviting me to this 
hearing today.
    Senator Coleman. Thank you very much, Senator Dayton. We 
are very much on time. This hearing is scheduled to end at 
11:30; we will adjourn at 11 a.m.
    First, on the issue about food transportation, I think it's 
a very important one. It may require an independent focus. 
Unlike tons of taconite, we consume food in this country. And 
with the potential to wreak havoc with biological and chemical 
agents and the ability to detect, that is something that 
clearly we have to make sure that we are focusing on and having 
the right resources and the ability to focus at the local level 
to deal with it.
    I do want to thank all of the participants. I think all of 
these panels have been very helpful, and I believe I speak for 
Chairman Collins and Senator Dayton in that regard. It's always 
good for us who work in Washington to go back home to listen to 
folks at the local level, because you are the ones who have to 
make it happen. So very appreciative.
    And then to my colleagues, Chairman Collins, thank you very 
much for taking time in your very busy schedule to be part of 
this hearing. And to my friend and colleague across the aisle, 
Senator Dayton, I thank you for being here.
    I do have several staff who are here. Can the staff raise 
their hands? The reason I do that, if folks have additional 
information or questions, please contact staff and let them 
know. We will keep the record open until the end of the week 
for the purpose of accepting further comments and a statement 
from the U.S. attorney.
    So with that, I want to thank you all for coming, and this 
hearing is adjourned.
    [Whereupon, at 11 a.m., the Subcommittee adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T7907.001

[GRAPHIC] [TIFF OMITTED] T7907.002

[GRAPHIC] [TIFF OMITTED] T7907.003

[GRAPHIC] [TIFF OMITTED] T7907.004

[GRAPHIC] [TIFF OMITTED] T7907.005

[GRAPHIC] [TIFF OMITTED] T7907.006

[GRAPHIC] [TIFF OMITTED] T7907.007

[GRAPHIC] [TIFF OMITTED] T7907.008

[GRAPHIC] [TIFF OMITTED] T7907.009

[GRAPHIC] [TIFF OMITTED] T7907.010

[GRAPHIC] [TIFF OMITTED] T7907.011

[GRAPHIC] [TIFF OMITTED] T7907.012

[GRAPHIC] [TIFF OMITTED] T7907.013

[GRAPHIC] [TIFF OMITTED] T7907.014

[GRAPHIC] [TIFF OMITTED] T7907.015

[GRAPHIC] [TIFF OMITTED] T7907.016

[GRAPHIC] [TIFF OMITTED] T7907.017

[GRAPHIC] [TIFF OMITTED] T7907.018

[GRAPHIC] [TIFF OMITTED] T7907.019

[GRAPHIC] [TIFF OMITTED] T7907.020

[GRAPHIC] [TIFF OMITTED] T7907.021

[GRAPHIC] [TIFF OMITTED] T7907.022

[GRAPHIC] [TIFF OMITTED] T7907.023

[GRAPHIC] [TIFF OMITTED] T7907.024

[GRAPHIC] [TIFF OMITTED] T7907.025

[GRAPHIC] [TIFF OMITTED] T7907.026

[GRAPHIC] [TIFF OMITTED] T7907.027

[GRAPHIC] [TIFF OMITTED] T7907.028

[GRAPHIC] [TIFF OMITTED] T7907.029

[GRAPHIC] [TIFF OMITTED] T7907.030

[GRAPHIC] [TIFF OMITTED] T7907.031

[GRAPHIC] [TIFF OMITTED] T7907.032

[GRAPHIC] [TIFF OMITTED] T7907.033

[GRAPHIC] [TIFF OMITTED] T7907.034

[GRAPHIC] [TIFF OMITTED] T7907.035

[GRAPHIC] [TIFF OMITTED] T7907.036

[GRAPHIC] [TIFF OMITTED] T7907.037

[GRAPHIC] [TIFF OMITTED] T7907.038

[GRAPHIC] [TIFF OMITTED] T7907.039

[GRAPHIC] [TIFF OMITTED] T7907.040

[GRAPHIC] [TIFF OMITTED] T7907.041

[GRAPHIC] [TIFF OMITTED] T7907.042

[GRAPHIC] [TIFF OMITTED] T7907.043

[GRAPHIC] [TIFF OMITTED] T7907.044

[GRAPHIC] [TIFF OMITTED] T7907.045

[GRAPHIC] [TIFF OMITTED] T7907.046

[GRAPHIC] [TIFF OMITTED] T7907.047

[GRAPHIC] [TIFF OMITTED] T7907.048

[GRAPHIC] [TIFF OMITTED] T7907.049

[GRAPHIC] [TIFF OMITTED] T7907.050

[GRAPHIC] [TIFF OMITTED] T7907.051

[GRAPHIC] [TIFF OMITTED] T7907.052

[GRAPHIC] [TIFF OMITTED] T7907.053

[GRAPHIC] [TIFF OMITTED] T7907.054

[GRAPHIC] [TIFF OMITTED] T7907.055

[GRAPHIC] [TIFF OMITTED] T7907.056

[GRAPHIC] [TIFF OMITTED] T7907.057

[GRAPHIC] [TIFF OMITTED] T7907.058

[GRAPHIC] [TIFF OMITTED] T7907.059

[GRAPHIC] [TIFF OMITTED] T7907.060

[GRAPHIC] [TIFF OMITTED] T7907.061

[GRAPHIC] [TIFF OMITTED] T7907.062

[GRAPHIC] [TIFF OMITTED] T7907.063

[GRAPHIC] [TIFF OMITTED] T7907.064

[GRAPHIC] [TIFF OMITTED] T7907.065

[GRAPHIC] [TIFF OMITTED] T7907.066


</pre></body></html>
